APPENDIX

i
APPENDIX
TABLE OF CONTENTS
Appendix A Opinion, United States Court of
Appeals for the Sixth Circuit
(September 11, 2019) . . . . . . . . . App. 1a
Appendix B Order Finding as Moot Defendant’s
Motion to Stay, United States District
Court for the Western District of
Tennessee
(February 27, 2018) . . . . . . . . . App. 34a
Appendix C Judgment, United States District
Court for the Western District of
Tennessee
(October 6, 2017) . . . . . . . . . . . . App. 37a
Appendix D O r d e r
Denying
Motion for
Reconsideration and Order
Concerning Remedies, United States
District Court for the Western District
of Tennessee
(September 20, 2017) . . . . . . . . App. 39a
Appendix E Supplemental Judgment on Fees,
United States District Court for the
Western District of Tennessee
(September 20, 2017) . . . . . . . . App. 76a

ii
Appendix F Order and Memorandum Finding
Billboard Act an Unconstitutional,
Content-Based Regulation of Speech,
United States District Court for the
Western District of Tennessee
(March 31, 2017) . . . . . . . . . . . . App. 78a
Appendix G Order Denying Rehearing, United
States Court of Appeals for the Sixth
Circuit
(November 6, 2019). . . . . . . . . App. 134a
Appendix H Relevant Constitutional and Statutory
Provisions
23 U.S.C. § 131(a)-(d) . . . . . . . App. 136a
Tenn. Code Ann.
§ 54-21-103 . . . . . . . . . . . . . . . App. 140a
Tenn. Code Ann.
§ 54-21-104(a) . . . . . . . . . . . . . App. 141a
Tenn. Code Ann.
§ 54-21-107 . . . . . . . . . . . . . . . App. 142a
Tenn. Comp. R. & Regs
1680-2-3-.03(1) . . . . . . . . . . . . App. 143a
Tenn. Comp. R. & Regs
1680-2-3-.06. . . . . . . . . . . . . . . App. 144a

App. 1a

APPENDIX A
RECOMMENDED FOR FULL-TEXT PUBLICATION
Pursuant to Sixth Circuit I.O.P. 32.1(b)
File Name: 19a0233p.06
UNITED STATES COURT OF APPEALS
FOR THE SIXTH CIRCUIT
No. 17-6238
[Filed September 11, 2019]
_________________________________________
WILLIAM HAROLD THOMAS, JR.,
)
Plaintiff-Appellee,
)
)
v.
)
)
CLAY BRIGHT, Commissioner of Tennessee
)
Department of Transportation,
)
Defendant-Appellant.
)
_________________________________________ )
Appeal from the United States District Court
for the Western District of Tennessee at Memphis.
No. 2:13-cv-02987—Jon Phipps McCalla,
District Judge.
Argued: January 30, 2019
Decided and Filed: September 11, 2019
Before: COLE, Chief Judge; BATCHELDER and
DONALD, Circuit Judges.

App. 2a
COUNSEL
ARGUED: Sarah Campbell, OFFICE OF THE
TENNESSEE ATTORNEY GENERAL, Nashville,
Tennessee, for Appellant. Owen Yeates, INSTITUTE
FOR FREE SPEECH, Alexandria, Virginia, for
Appellee. Lindsey Powell, UNITED STATES
DEPARTMENT OF JUSTICE, Washington, D.C.,
Eugene Volokh, UCLA SCHOOL OF LAW, Los
Angeles, California, for Amici Curiae. ON BRIEF:
Sarah Campbell, OFFICE OF THE TENNESSEE
ATTORNEY GENERAL, Nashville, Tennessee, for
Appellant. Owen Yeates, Allen Dickerson, INSTITUTE
FOR FREE SPEECH, Alexandria, Virginia, for
Appellee. Lindsey Powell, UNITED STATES
DEPARTMENT OF JUSTICE, Washington, D.C.,
Eugene Volokh, UCLA SCHOOL OF LAW, Los
Angeles, California, Kannon K. Shanmugam, A. Joshua
Podoll, WILLIAMS & CONNOLLY LLP, Washington,
D.C., Ilya Shapiro, CATO INSTITUTE, Washington,
D.C., Braden H. Boucek, BEACON CENTER OF
TENNESSEE, Nashville, Tennessee, Timothy
Sandefur, GOLDWATER INSTITUTE, Phoenix,
Arizona, Robert Alt, THE BUCKEYE INSTITUTE,
Columbus, Ohio, for Amici Curiae.
_________________
OPINION
_________________
ALICE M. BATCHELDER, Circuit Judge. Under
Tennessee’s Billboard Act, anyone intending to post a
sign along a Tennessee roadway must apply to the
Tennessee Department of Transportation (TDOT) for a

App. 3a
permit, unless the sign falls within one of the Act’s
exceptions. This case presents a constitutional
challenge to the Act, based on the “on-premises
exception” for signs relating to the use or purpose of the
real property (premises) on which the sign is physically
located, typically signs advertising the activities,
products, or services offered at that location.
William Thomas owned a billboard on an otherwise
vacant lot and posted a sign on it supporting the 2012
U.S. Summer Olympics Team. Tennessee ordered him
to remove it because the State had denied him a permit
and the sign did not qualify for the exception, given
that there were no activities on the lot to which the
sign could possibly refer. Thomas sued, claiming that
this application of the Billboard Act violated the First
Amendment. The district court held the Act
unconstitutional because the on-premises exception
was content-based and thus subject to strict scrutiny,
failed to survive strict scrutiny, and was not severable
from the rest of the Act. We affirm, recognizing that
Reed v. Town of Gilbert, 135 S. Ct. 2218 (2015),
overruled our existing circuit precedent on this issue in
Wheeler v. Commissioner of Highways, 822 F.2d 586
(6th Cir. 1987).
I. BACKGROUND
A. Tennessee’s Billboard Act
In 1965, Congress enacted the Federal Highway
Beautification Act (“HBA”), 23 U.S.C. § 131, which
sought to “promote the safety and recreational value of
public travel, and to preserve natural beauty.” Id. The
HBA conditions ten percent of a State’s federal

App. 4a
highway funds on the State’s maintaining “effective
control” of signs within 660 feet of an interstate or
primary highway, id. at § 131(b), meaning the State
must limit signage to (1) “directional and official signs
and notices,” (2) “advertising [for] the sale or lease of
property upon which [the sign is] located,”
(3) “advertising [for] activities conducted on the
property on which [the sign is] located,”
(4) “landmark[s] . . . or historic or artistic significance,”
or (5) “advertising [for] the distribution by nonprofit
organizations of free coffee.” Id. at § 131(c). The State
may also, with U.S. Department of Transportation
approval, permit signs in areas zoned industrial or
commercial. Id. at § 131(d).
In order to comply with the HBA and ensure full
federal funding, Tennessee enacted the Billboard
Regulation and Control Act of 1972 (“Billboard Act”),
Tenn. Code Ann. (T.C.A.) § 54-21-101, et seq. The
Billboard Act parallels the HBA in most relevant
respects and prohibits all outdoor signage within 660
feet of a public roadway unless expressly permitted by
TDOT permit. Id. § -103. But the Act also provides
exceptions under which certain signs may be posted
without permit, including an exception for signage
“advertising activities conducted on the property on
which [the sign is] located.” Id. § -103(3). This is
referred to as the “on-premises exception” and
corresponds to the HBA’s third limitation. Under the
Act’s implementing regulations:
A sign will be considered to be an on-premise[s]
sign if it meets the following requirements:

App. 5a
(a) Premise[s] - The sign must be located on the
same premises as the activity or property
advertised.
(b) Purpose - The sign must have as its purpose
(1) the identification of the activity, or its
products or services, or (2) the sale or lease of
the property on which the sign is located, rather
than the purpose of general advertising.
Tenn. Comp. R. & Regs. (T.C.R.R.) § 1680-02-03-.06(2).
The regulations elaborate further:
The following criteria shall be used for
determining whether a sign has as its purpose []
the identification of the activity located on the
premises or its products or services, . . . rather
than the business of outdoor advertising.
(a) General
1. Any sign which consists solely of the
name of the establishment is an onpremises sign.
2. A
sign
which
identifies
the
establishment’s principle [sic] or
accessory product or services offered on
the premises is an on-premises sign.
3. An example of an accessory product would
be a brand of tires offered for sale at a
service station.

App. 6a
(b) Business of Outdoor Advertising
1. When an outdoor advertising device
(1) brings rental income to the property
owner, or (2) consists principally of brand
name or trade name advertising, or
(3) the product or service advertised is
only incidental to the principle [sic]
activity, it shall be considered the
business of outdoor advertising and not
an on-premises sign. An example would be
a typical billboard located on the top of a
service station building that advertised a
brand of cigarettes or chewing gum which
is incidentally sold in a vending machine
on the property.
2. An outdoor advertising device which
advertises activities conducted on the
premises, but which also advertises, in a
prominent manner, activities not
conducted on the premises, is not an onpremises sign. An example would be a
sign advertising a motel or restaurant not
located on the premises with a notation or
attachment stating ‘Skeet Range Here,’ or
‘Dog Kennels Here.’ The on-premises
activity would only be the skeet range or
dog kennels.
T.C.R.R. § 1680-02-03-.06(4) (emphasis added;
alteration of “premise” to “premises” throughout). So,
to recap, and to be a bit more specific, the sign must
(1) be physically located on the same “premises” (real
property) as the activity being advertised on the sign,

App. 7a
and must (2) have as its purpose the identification of
that activity occurring on the premises, or the products
or services provided by that activity on the premises,
not the purpose of advertising generally or advertising
an activity, product, or service occurring elsewhere.
Finally, we would be remiss if we did not
acknowledge that, by all indications, the Act was
intended to, and routinely does, apply to only
commercial speech, namely, advertising. But in this
case, Tennessee applied the Act to restrict speech
conveying an idea: “non-commercial speech” that was
not advertising nor commercial in any way, but might
be labeled “patriotic speech.”
B. State Court Litigation
In 2006, Thomas—the owner of over 30 billboards in
Tennessee—applied to the TDOT for a permit to erect
a billboard on a vacant lot, hereinafter referred to as
the “Crossroads Ford billboard,” on which he would
display a commercial advertisement. TDOT denied the
application but Thomas constructed the Crossroads
Ford billboard and posted his sign anyway. TDOT sued
in the Tennessee state court, claiming that Thomas
was in violation of the Billboard Act and also arguing
that the Crossroads Ford billboard could not satisfy the
on-premises exception because it was located on a
vacant lot with no on-premises activity whatsoever.
The state trial court found “substantial evidence of
selective and vindictive enforcement against
[Thomas],” including emails from TDOT employees
working in concert with a competitor of Thomas’s to
“defeat” him, and unsolicited emails sent from TDOT

App. 8a
employees to advertisers on Thomas’s other billboards
suggesting that his billboards were illegal and that
associating with Thomas would reflect “negatively” on
them. The court granted a temporary restraining order
forbidding TDOT from enforcing the Billboard Act
against Thomas’s Crossroads Ford billboard until
further notice. Thomas subsequently obtained a
billboard permit from the Memphis and Shelby County
(Tenn.) Office of Construction Code Enforcement but
did not obtain a state permit from TDOT. He used the
Crossroads Ford billboard for commercial advertising
until 2012. Meanwhile, TDOT had appealed the
decision and the Tennessee Court of Appeals vacated
the judgment and remanded the case, instructing the
trial court to hear Tennessee’s requests for relief. State
ex rel. Dep’t of Transp. v. Thomas, 336 S.W.3d 588, 608
(Tenn. Ct. App. 2010).
By 2012, Thomas had stopped posting commercial
advertising on the Crossroads Ford billboard and
instead had posted a message about free speech, which
he later changed to “Go USA!,” imposed on a large
American flag, in support of the USA Olympic Team in
the 2012 Summer Games. On remand, the state trial
court found that this, the conveyance of an idea, was
not commercial advertising, and was excepted from
TDOT’s authority to enforce the Billboard Act. TDOT
again appealed and the Tennessee Court of Appeals
again reversed, reiterating that, “[u]nless [the sign] fits
within one of the exceptions named in the Act, if he
does not have a State billboard permit, [Thomas] is not
allowed to erect a billboard[,] [p]eriod[,] . . . [r]egardless
of what message is displayed on the Crossroads Ford
site billboard.” State ex rel. Dep’t of Transp. v. Thomas,

App. 9a
2014 WL 6992126 at *7 (Tenn. Ct. App. Dec. 11, 2014)
(editorial mark, quotation marks, and citation omitted).
On remand, Thomas relied on the district court’s
opinion here, which was proceeding simultaneously, to
persuade the state trial court to reinstate its original
order (in his favor), but the Tennessee Court of Appeals
again reversed, holding that “the 2017 [f]ederal
[d]istrict [c]ourt [r]uling does not represent a change in
controlling law for purposes of the law of the case
doctrine,” and this time reassigning the case to a
different trial judge. State ex rel. Dep’t of Transp. v.
Thomas, 2019 WL 1602011, at *8 (Tenn. Ct. App.
Apr. 15, 2019). Thus, state proceedings are ongoing.
C. Federal Court Litigation
In 2013, Thomas sued in federal court, alleging that
the Billboard Act was an unconstitutional restriction of
speech in violation of the First Amendment. The
district court ultimately agreed, quoting and relying on
Reed, 135 S. Ct. at 2222, for the proposition that “a law
that is content based on its face is subject to strict
scrutiny regardless of the government’s benign motive,
content-neutral justification, or lack of animus toward
the ideas contained in the regulated speech.” Thomas
v. Schroer, 248 F. Supp. 3d 868, 871 (W.D. Tenn. 2017)
(quotation and editorial marks omitted). The district
court explained that, under the Act, “the only way to
determine whether a sign is an on-premise[s] sign, is to
consider the content of the sign and determine whether
that content is sufficiently related to the activities
conducted on the property on which they are located,”
id. at 879 (quotation marks and record citation
omitted), so the Act “is a content-based regulation that

App. 10a
implicates Thomas’s noncommercial speech,” id. at 878.
This required strict scrutiny, which the Act “does not
survive,” id., because Tennessee’s asserted interests
are not compelling, id. at 881-82, nor is the Act
narrowly tailored to achieve them, id. at 885. The court
held the Billboard Act unconstitutional as applied to
the Crossroads Ford billboard sign. Id.
Thomas moved to expand the relief he sought,
asking the district court to permanently enjoin
Tennessee from enforcing the Billboard Act against all
signs or at least against all of his signs. Thomas argued
that his challenge had been both facial and as-applied,
but the court held that it was only as-applied and
Thomas had not justified an expansion of the relief
sought. Thomas v. Schroer, No. 13-cv-02987, 2017 WL
6489144, at *1 (W.D. Tenn. Sept. 20, 2017) (“On
March 31, 2017, the [c]ourt found the Billboard Act, as
applied to Thomas’s non-commercial messages on his
Crossroads Ford sign, a violation of the Free Speech
provision of the First Amendment of the United States
Constitution.”); see also id. at *7 (“Upon review of the
record, it is clear that [Thomas] has not alleged the
Billboard Act is unconstitutional in all its applications,
or even unconstitutional as to a substantial number of
applications.”). The court permanently enjoined
Tennessee from enforcing the Billboard Act against
Thomas’s Crossroads Ford sign. Id. at *10.
At the same time, Tennessee had moved the court
to reconsider its holding that the Billboard Act was not
severable. The court denied the motion, finding that
there was no clear or prudent line at which to sever, id.
at *5, and nothing in the Act said that it was severable,

App. 11a
as is required for severability under Tennessee law, or
that the Tennessee legislature would have enacted it
without the unconstitutional portions, id. at *3. Thus,
the court declined to save the Act’s commercial or offpremises aspects by severing the on-premises
exception, and instead left that for the Tennessee
legislature.1 Id. at *5. Thomas resumed commercial
advertising on his Crossroads Ford billboard and
Tennessee appealed the judgment here.
II. ANALYSIS
Tennessee appeals the district court’s holding that
the Billboard Act, as effectuated by the on-premises
exception, is an unconstitutional restriction of
Thomas’s non-commercial speech at the Crossroads
Ford billboard location. We review de novo a district
court’s decision on the constitutionality of a State
statute, including whether the statute satisfies the
applicable level of scrutiny. Assoc. Gen. Contr. of Ohio,
Inc. v. Drabik, 214 F.3d 730, 734 (6th Cir. 2000).
A. Exceptions as Restrictions
The restriction here is based on an exception to a
regulation, which makes the exception—the denial of
the exception, actually—the restriction. This posture
does not change our analysis.

1

The district court’s rulings reflect an apparent inconsistency: on
one hand, the Act was not severable and entirely unconstitutional,
but on the other hand, the court limited its as-applied holding to
Thomas’s non-commercial speech on his Crossroads Ford billboard.
Whatever the practical effects, this does not affect our analysis in
this appeal.

App. 12a
Textually, the Billboard Act is a blanket, contentneutral prohibition on any and all signage speech
except for speech that satisfies an exception; here, the
on-premises exception. In this way, Tennessee favors
certain content (i.e., the excepted content) over others,
so the Act, “on its face,” discriminates against that
other content. See Sorrell v. IMS Health Inc., 564 U.S.
552, 564-66 (2011). The fact that this content-based
aspect is in the exception to the general restriction,
rather than the restriction itself, does not save it from
this analysis. Police Dep’t of City of Chicago v. Mosley,
408 U.S. 92, 96 (1972) (“Selective exclusions from
[speech restrictions] may not be based on content alone,
and may not be justified by reference to content
alone.”); see City of Ladue v. Gilleo, 512 U.S. 43, 51
(1994) (the notion that the exceptions to a restriction of
speech may be insufficiently expansive “is firmly
grounded in basic First Amendment principles”).
B. Severability
The district court held that the Billboard Act was
not severable, and Tennessee has not challenged that
holding in this appeal. We will not sua sponte address
the merits of that issue.
Tennessee had argued to the district court that the
non-commercial, on-site exception was severable from
the remainder of the Act, particularly the commercial
or off-site applications, and, after losing that argument,
moved the court to reconsider, which the court denied:
[T]he [c]ourt declines (1) to find the Billboard
Act’s provisions concerning outdoor advertising
severable as to the challenged provisions or

App. 13a
(2) to sever the non-commercial application of
those provisions. The Billboard Act does not
explicitly address whether it could function
without the on-premises/off-premises provision
or without application to non-commercial
speech.
Thomas, 2017 WL 6489144, at *4. But Tennessee did
not raise severability here, in either its briefing or
during oral argument. We do not decide issues or
arguments that are not directed to us, nor do we make
or assume them on behalf of litigants. See Gradisher v.
City of Akron, 794 F.3d 574, 586 (6th Cir. 2015).
Therefore, we will not disturb the district court’s
determination that the Act, as applied in this case, is
unconstitutional inasmuch as the on-premises
exception is not severable from it, and that “it is for the
Tennessee State Legislature—and not this [c]ourt—to
clarify the Legislature’s intent regarding the Billboard
Act in the wake of Reed.” Thomas, 2017 WL 6489144,
at *5.
C. Content-Based Restrictions
The Billboard Act’s on-premises exception scheme
is a content-based regulation of (restriction on) free
speech. Although we discuss this at length, this is
neither a close call nor a difficult question. If not for
Tennessee’s proffered disputes, we would label this
“indisputable.”
When a case implicates a core constitutional right,
such as a First Amendment right, we must determine
the level of scrutiny to apply based on whether the
restriction is content-based or content-neutral. Reed,

App. 14a
135 S. Ct. at 2226-27. Because Thomas’s challenge to
the Act concerned only non-commercial speech (“Go
USA!”) and this appeal stems from the district court’s
as-applied holding, we necessarily confine the analysis
here to non-commercial speech and need not consider
the commercial-speech doctrine. And, as just explained,
the provision is not severable.
Under the First Amendment, the State may
regulate certain aspects of speech but has “no power to
restrict expression because of its message, its ideas, its
subject matter, or its content.” Mosley, 408 U.S. at 95.
Content-based regulations are “presumptively
unconstitutional” and analyzed under strict scrutiny.
Reed, 135 S. Ct. at 2226. Content-neutral regulations
of non-commercial speech need only survive
intermediate scrutiny. Id. at 2228.
Although “[d]eciding whether a particular
regulation is content-based or content-neutral is not
always a simple task,” Turner Broad. Sys. Inc., v. FCC,
512 U.S. 622, 642 (1994), the Supreme Court has
provided several means for doing so. As applicable
here, a law regulating speech is facially content-based
if it “draws distinctions based on the message,” Reed,
135 S. Ct. at 2227; if it “distinguish[es] among different
speakers, allowing speech by some but not others,”
Citizens Unite v. Federal Election Comm’, 558 U.S. 310,
340 (2010); or if, in its application, “it require[s]
enforcement authorities to examine the content of the
message that is conveyed to determine whether a
violation has occurred,” McCullen v. Coakley, 573 U.S.
464, 479 (2014) (quoting FCC v. League of Women

App. 15a
Voters, 468 U.S. 364, 383 (1984)) (quotation marks
omitted).2
The Billboard Act’s on-premises exception allows a
property owner to avoid the permitting process and
proceed to post a sign without any permit, so long as
the sign is “advertising activities conducted on the
property on which [the sign is] located.” T.C.A. § 54-21103(3). The enabling regulation specifies that the sign
must be “located on the same premises as the activity”
and “have as its purpose [the] identification of the
activity[,] products[,] or services [offered on that same
premises].” T.C.R.R. § 1680-02-03-.06(2). Therefore, to
determine whether the on-premises exception does or
does not apply (i.e., whether the sign satisfies or
violates the Act), the Tennessee official must read the
message written on the sign and determine its
meaning, function, or purpose.
The Supreme Court has made plain that a purpose
component in a scheme such as this is content-based:
“Some facial distinctions based on a message are
obvious, defining regulated speech by particular subject
matter, and others are more subtle, defining regulated
speech by its function or purpose.” Reed, 135 S. Ct. at

2

The Court has also recognized that some laws “though facially
content-neutral, will be considered content-based,” Reed 135 S. Ct.
at 2227, such as if the law “cannot be justified without reference to
the content of the regulated speech” or was “adopted by the
government because of disagreement with the message [the
prohibited speech] conveys.” Id. (citing Ward v. Rock Against
Racism, 491 U.S. 781, 791 (1989)) (quotation marks omitted).
Because the Billboard Act is facially content-based, however, we
need not proceed to these other means in this analysis.

App. 16a
2227 (emphasis added). Clearly, this regulatory scheme
requires Tennessee officials to assess the meaning and
purpose of the sign’s message in order to determine if
the sign violated the Act. See McCullen, 573 U.S. at
479. To digress a bit, a sign written in a foreign
language would have to be translated (and interpreted)
before a Tennessee official could determine whether the
on-premises exception would apply or the sign violated
the Act. There is no way to make those decisions
without understanding the content of the message.
More to the point here, Tennessee’s own agent
confirmed at trial that officials would be “looking at the
content of [the] sign to make [a] determination whether
it’s on-premises or off-premises.” That makes the
Billboard Act—via the on-premises exception—content
based. “[A] regulatory scheme [that] requires a
municipality to examine the content of a sign to
determine which ordinance to apply . . . appears to run
afoul of Reed’s central teaching.” Wagner v. City of
Garfield Heights, 675 F. App’x 599, 604 (6th Cir. 2017)
(quotations omitted).
Moreover, under this scheme, to determine whether
a violation has occurred, the Tennessee official not only
“examines the content of the message that is conveyed,”
see McCullen, 573 U.S. at 479 (emphasis added), but
must also identify, assess, and categorize the activity
conducted at that location and determine whether the
content of the message sufficiently relates to that
activity, product, or service. See T.C.R.R. § 1680-02-03.06(2). The examples provided in the Tennessee
regulations are relatively straightforward: a sign on a
service station advertising a brand of tires versus one
advertising a brand of cigarettes. Compare -.06(4)(a)(3)

App. 17a
with (b)(1). And the present case is hardly more
difficult, given that the Crossroads Billboard is on a
vacant lot. But what if this sign, with its “Go USA!”
and American flag referencing the Summer Olympics
were posted on a U.S. Olympic Committee facility? Or
on an unaffiliated athletic training facility, a retail
store selling U.S. Olympic Team merchandise, an NBC
station broadcasting the Games, a travel agency
offering discount trips to London for the Games, a
casino with wagering on Olympic events, an animal
shelter that names each of the pets after an American
Olympic athlete because that facilitates adoptions, or
a Korean consulate attempting to extend diplomatic
good will? Which of these activities, products, or
services falls satisfactorily within the meaning,
function, or purpose of the sign so as to meet the
exception? More importantly, who decides? The
Tennessee official decides.
This brings us back around to Tennessee’s
argument that nothing at the Crossroads Ford
billboard location could satisfy the exception because
nothing happens there; it is a vacant lot. But rather
than render the scheme content-neutral, that redoubles
the importance of the content of the message. Suppose
the sign said: “vacant lot, lots of vacancy,” “free
air—stop and enjoy some,” or “fill wanted.” Those
messages might or could be the lot’s activities,
products, or services.
Tennessee contends that the Billboard Act’s onpremises exception is not content-based because the
operative distinction is “between signs that are related
to the property on which they are located and those

App. 18a
which are not . . . [meaning] the on-premise[s]
exception distinguishes between signs based on their
location, and not their content.” That is, the content of
the message is irrelevant; all that matters is its
location—signs can say whatever they want so long as
they are in the correct location But Tennessee’s
argument is specious: whether the Act limits onpremises signs to only certain messages or limits
certain messages from on-premises locations, the
limitation depends on the content of the message. It
does not limit signs from or to locations regardless of
the messages—those would be the (content-neutral)
limitations that would fit its argument.
Even if Tennessee were correct, this “location”
argument would simply trade one problem for another:
instead of discriminating against the signs’ messages,
the Act would discriminate against the speaker. A law
that allows a message but prohibits certain speakers
from communicating that message is content-based.
See Turner, 512 U.S. at 658 (“[S]peaker-based laws
demand strict scrutiny when they reflect the
Government’s preference for the substance of what the
favored speakers have to say (or aversion to what the
disfavored speakers have to say).”); Greater New
Orleans Broad. Ass’n, Inc. v. United States, 527 U.S.
173, 193-94 (1999) (“Even under the degree of scrutiny
that we have applied in commercial speech cases,
[regulations] that select among speakers conveying
virtually identical messages are in serious tension with
the principles undergirding the First Amendment.”).
Tennessee cites language from Reed, 135 S. Ct. at
2227, that the law in question there “depend[ed]

App. 19a
entirely on the communicative content of the sign,” for
its argument that Reed means that a law is contentbased only if it “depends entirely” on the content of a
message. But that language was a factual statement
describing the defendant’s municipal code, not part of
Reed’s analysis or holding. In any event, the Supreme
Court has repeatedly held that laws combining contentbased and content-neutral factors are nonetheless
content-based. See Mosley, 408 U.S. at 98 (holding a
law was content-based where it prohibited nonlaborrelated picketing at a place of employment); Carey v.
Brown, 447 U.S. 455, 460 (1980) (same); Boos v. Barry,
485 U.S. 312, 319 (1988) (holding a law was contentbased where it prohibited speech critical of a foreign
government within 500 feet of that government’s
embassy). In fact, in those cases, the Court used the
same or similar “depends entirely” language to describe
a necessarily content-based component even though it
was combined with a content-neutral one. See, e.g.,
Boos, 485 U.S. at 318 (holding that restriction “depends
entirely upon whether [the] signs are critical of the
foreign government”). The Act’s on-premises exception
employs a similar conjunctive binary of location and
purpose: a sign must meet both prongs to qualify.
Either can render the whole provision content-based.
Tennessee also argues that an otherwise contentbased law is content-neutral if the State’s justifications
for that law are content-neutral, relying on Wheeler v.
Commissioner of Highways, 822 F.2d 586, 590–94 (6th
ir. 1987), in which we considered a similar challenge to
Kentucky’s identical billboard law and held that it was
not content-based because Kentucky’s justifications
were content-neutral. But Reed established that the

App. 20a
State’s justifications or motivations are relevant only if
the law appears facially content-neutral:
A law that is content-based on its face is subject
to strict scrutiny regardless of the government’s
benign motive, content-neutral justification, or
lack of animus toward the ideas contained in the
regulated speech. . . . That is why we have
repeatedly considered whether a law is contentneutral on its face before turning to the law’s
justification or purpose.
Reed, 135 S. Ct. at 2228 (quotations and citations
omitted). In fact, Reed criticized the same argument
Tennessee makes now: “The Court of Appeals . . .
misunderstand[s] our decision in Ward as suggesting
that a government’s purpose is relevant even when a
law is content-based on its face. That is incorrect.” Id.
Rather, while “a content-based purpose may be
sufficient” to transform a facially content-neutral law
into one that is content-based, “an innocuous
justification cannot transform a facially content-based
law into one that is content-neutral.” Id. (citation
omitted). Simply put, Reed overruled Wheeler, which is
no longer good law.
Finally, Tennessee would have us reconstruct the
Reed decision by engaging in a form of speculative votecounting. All nine Justices joined the judgment in Reed,
but three concurred in the judgment only, with Justice
Kagan opining that she would have applied
intermediate scrutiny, id. at 2238 (Kagan, J.), and
three concurred in Justice Alito’s “few words of further
explanation,” in which he identified some examples of
state regulations that would not be content-based,

App. 21a
including one for “[rules distinguishing between onpremises and off-premises signs.” Id. at 2233 (Alito, J.).
Tennessee pounces on this example and contends that
the three Justices who joined Justice Alito would find
an on/off-premises distinction content-neutral, as
would the three who joined Justice Kagan—ergo, six of
the nine Justices would find an on/off-premises
distinction content-neutral. The district court
appropriately made quick work of this argument:
This Court agrees it is possible for a restriction
that distinguishes between off- and on-premises
signs to be content-neutral. For example, a
regulation that defines an off-premise[s] sign as
any sign within 500 feet of a building is contentneutral. But if the off-premises/on-premises
distinction hinges on the content of the message,
it is not a content-neutral restriction. A contrary
finding would read Justice Alito’s concurrence as
disagreeing with the majority in Reed. The
Court declines such a reading. Justice Alito’s
exemplary list of “some rules that would not be
content-based” ought to be read in harmony with
the majority’ holding. [] Read in harmony with
the majority, Justice Alito’s concurrence
enumerates an ‘on-premises/off-premises’
distinction that is not defined by the sign’s
content, but by the sign’s physical location or
other content-neutral factor.
Thomas, 248 F. Supp. 3d at 879. There might be many
formulations of an on/off-premises distinction that are
content-neutral, but the one before us is not one of
them.

App. 22a
Tennessee’s Billboard Act contains a non-severable
regulation of speech based on the content of the
message. Applied to Thomas’s billboard, it is, therefore,
a content-based regulation of non-commercial speech,
which subjects it to strict scrutiny. See Reed, 135 S. Ct.
at 2226–27.
D. Strict Scrutiny
For a content-based restriction of non-commercial
speech to survive strict scrutiny, the State must “prove
that the restriction furthers a compelling interest and
is narrowly tailored to achieve that interest.” Arizona
Free Enterprise Club’s Freedom Club PAC v. Bennett,
564 U.S. 721, 734 (2011) (quotation omitted). Because
the on-premises exception is not severable from the
Billboard Act, we must consider the Act as a whole and
analyze both Tennessee’s interests and precisely how
Tennessee has tailored the Act to achieve those
interests.
1. Compelling State Interests
Tennessee proffers three “compelling state
interests” public aesthetics, traffic safety, and
safeguarding the constitutional rights of property
owners. Tennessee furthers its interests in aesthetics
and traffic safety through enforcement of the Billboard
Act and the Act’s general prohibition of signage.
Tennessee pursues its interests in safeguarding the
constitutional rights of property owners through the
Billboard Act’s exceptions, including the on-premises
exception.
In Reed, 135 S. Ct. at 2231, the Court “assum[ed] for
the sake of argument that [aesthetic appeal and traffic

App. 23a
safety] are compelling governmental interests.” In
Wagner, 675 F. App’x at 607, we decided to “follow the
Court’s example in Reed and assume without deciding
that [aesthetic appeal and traffic safety] are
sufficiently compelling.”
But the Supreme Court has repeatedly found a
State’s interest in public aesthetics to be only
“substantial” (rather than compelling), which is the
interest level of intermediate scrutiny. Metromedia,
Inc. v. City of San Diego, 453 U.S. 490, 507-08 (1981);
City of Cincinnati v. Discovery Network, Inc., 507 U.S.
410, 425–29 (1993). Tennessee concedes that no court
has ever found public aesthetics to be a compelling
interest and presents no persuasive arguments for
finding that it is, but nonetheless urges us to break
new ground. We decline to do so.
Traffic safety presents a different scenario. In the
Fourth Amendment context, the Supreme Court has
recognized a compelling interest in “highway safety,”
Mackey v. Montrym, 443 U.S. 1, 19 (1979) (upholding a
Massachusetts “implied consent” law for breathalyzer
tests), and we have done likewise, see Tanks v. Greater
Cleveland Reg’l Transit Auth., 930 F.2d 475, 479–80
(6th Cir. 1991) (upholding an Ohio law requiring public
bus drivers to submit to randomized drug tests). But
neither the Supreme Court nor this court has issued
any such holding in the First Amendment context. We
would, again, be breaking new ground and decline to do
so.
As an aside, the Court has held elsewhere (under
intermediate scrutiny) that the State must show that
its justifications for a restrictive law are “genuine [and]

App. 24a
not hypothesized or invented post-hoc in response to
litigation.” United States v. Virginia, 518 U.S. 515, 533
(1996). Here, we have persuasive evidence that
Congress in enacting the HBA, and in turn Tennessee
in enacting the Billboard Act, were motivated almost
exclusively by aesthetic, not public safety, concerns. See
Brief for the Buckeye Institute as Amicus Curiae in
Support of Appellee, pgs. 4–11. Moreover, exceptions
“diminish the credibility of the government’s rationale
for restricting speech in the first place.” Gilleo, 512
U.S. at 52. The Billboard Act’s ready exceptions, see
T.C.A. §§ 54-21-103(4)-(5); -104; -107, undermine
Tennessee’s professed concern for traffic safety by
allowing significant commercial signage that serves
Tennessee’s economic interests, which Tennessee
concedes are not compelling. And, we note that, despite
“[a]ssuming for the sake of argument,” that traffic
safety is a compelling interest, the Court in Reed, 135
S. Ct. at 2231-32, nonetheless concluded that
restrictions on non-commercial signs were not “justified
by traditional safety concerns.”
Finally, Tennessee argues that it has a compelling
interest in safeguarding the constitutional rights of
business and property owners, namely their First
Amendment rights, through the on-premises exception
to the Billboard Act. It is undoubtedly true that State’s
interest in complying with its constitutional obligations
is compelling. Widmar v. Vincent, 454 U.S. 263, 271
(1981). Thomas concedes this point but objects to
Tennessee’s raising the argument here, protesting that
Tennessee forfeited the issue by not raising it clearly to
the district court. We agree—and Tennessee
admits—that Tennessee could have done a better job of

App. 25a
addressing this issue to the district court, but we
proceed as if Tennessee sufficiently raised the issue
and preserved it for appeal. See United States v.
Huntington Nat’l Bank, 574 F.3d 329, 332 (6th Cir.
2009).
2. Narrowly Tailored
To establish that a law regulating or restricting
speech is narrowly tailored, “the Government carries
the burden of showing that the challenged regulation
advances the Government’s [compelling] interest in a
direct and material way.” Rubin v. Coors Brewing Co.,
514 U.S. 476, 487 (1995) (quotation omitted). While the
regulation need not be perfectly tailored, the State’s
burden is not carried if the regulation “provides only
ineffective or remote support” of the claimed compelling
interest. Greater New Orleans, 527 U.S. at 188
(quotation omitted).
In Metromedia, 453 U.S. at 503, the Court
addressed a billboard ordinance similar to Tennessee’s
Billboard Act. Under that ordinance:
a sign advertising goods or services available on
the property where the sign is located is allowed;
[but] a sign on a building or other property
advertising goods or services produced or offered
elsewhere is barred; [and] non-commercial
advertising, unless [relating to the premises], is
everywhere prohibited. The occupant of property
may advertise his own goods or services; he may
not advertise the goods or services of others, nor
may he display most non-commercial messages.

App. 26a
Id. Finding the ordinance unconstitutional as applied
to non-commercial speech, a divided court rendered a
four-Justice plurality opinion, a two-Justice
concurrence in the judgment only, and three separate
dissents, each agreeing with different aspects of the
plurality opinion or concurrence. Id. Later, in another
First Amendment challenge to a sign ordinance, the
Court affirmed both the plurality and concurrence as
“two analytically distinct grounds for challenging the
constitutionality of [an ordinance] regulating the
display of signs.” Gilleo, 512 U.S. at 50.
The first ground is if the law is overinclusive.
Metromedia, 453 U.S. at 521-39 (Brennan, J.,
concurring in the judgment only). A content-based law
regulating speech is overinclusive if it implicates more
speech than necessary to advance the government’s
interests. See Simon & Schuster, Inc. v. Members of
N.Y. State Crime Victims Bd., 502 U.S. 105, 121 (1991).
“[S]uch provisions are subject to attack on the ground
that they simply prohibit too much protected speech.”
Gilleo, 512 U.S. at 51. “To allow a government the
choice of permissible subjects for public debate would
be to allow that government control over the search for
political truth.” Consolidated Edison Co. v. Public Serv.
Comm’n, 447 U.S. 530, 538 (1980); see also Jamison v.
Texas, 318 U.S. 413, 416 (1943) (holding invalid the
total prohibition of handbills on the public streets);
Martin v. City of Struthers, 319 U.S. 141, 145–149
(1943) (holding invalid the total prohibition of door-todoor distribution of literature); but see City Council of
City of Los Angeles v. Taxpayers for Vincent, 466 U.S.
789, 807 (1984) (upholding a total prohibition of
signage attached to utility poles). To survive an

App. 27a
overinclusiveness challenge, the State must both meet
the requisite tailoring requirements and “leave open
ample alternative channels for communication” of the
affected speech. Clark v. Cmty. for Creative NonViolence, 468 U.S. 288, 293 (1984).
The second ground is if the law is underinclusive.
Metromedia, 453 U.S. at 512-17 (White, J., plurality).
This type of challenge is generally appropriate when a
regulation functions “through the combined operation
of a general speech restriction and [selected]
exemptions.” Gilleo 512 U.S. at 51. Such a law is
problematic “because its exemptions discriminate on
the basis of the signs’ messages.” Id. By picking and
choosing which subjects or speakers are exempted, the
government may “attempt to give one side of a
debatable public question an advantage in expressing
its views to the people.” First Nat. Bank v. Bellotti, 435
U.S. 765, 785 (1978). The underinclusiveness of a law
can be cured by either eliminating the exemptions such
that all speech is treated equally or expanding the
exemptions to include more protected speech. See
Metromedia, 453 U.S. at 513-15 (plurality).
Although Thomas makes both overinclusiveness and
underinclusiveness arguments, his challenge is more
appropriately one of underinclusiveness. Most
obviously, the Billboard Act’s “operation of a general
speech restriction and [selected] exemptions” clearly
lends itself to such an examination. See Gilleo, 512 U.S.
at 51. Notably, the ordinance in Metromedia would
have required the removal of long-standing billboards
and the parties jointly stipulated that billboards had
long been “an effective medium of communication” and

App. 28a
“other forms of advertising [were] insufficient,
inappropriate, and prohibitively expensive.”
Metromedia, 453 U.S. at 525-26 (concurrence). Those
stipulated facts were central to the concurrence’s
finding that an overinclusiveness challenge was the
“appropriate analytical framework to apply.” Id. at 525.
That dynamic is not present here—indeed there is no
broad reliance interest at stake nor does Thomas
argue, or Tennessee concede, that billboards are
necessary media for non-commercial speech.
Because, as applied in this case, the exception is the
restriction, we must consider whether the exception is
sufficiently expansive to save constitutionally protected
speech from the Act’s effective prohibition. See
Metromedia, 453 U.S. at 520. If not, then the
“exemptions discriminate on the basis of the signs’
messages,” and the Act is an underinclusive restriction
on speech. See Gilleo, 512 U.S. at 51. We find the Act
underinclusive in two ways.
First, the Act discriminates among non-commercial
messages on the basis of content. Consider a
hypothetical. A crisis pregnancy center erects a sign on
its premises that says: “Abortion is murder!” Such a
sign would presumably qualify for the on-premises
exception because the message is related to the
activities, goods, and services at the center. But may
the property owner next door, who provides no services
related to abortion, erect a sign that says: “Keep your
laws off of my body!”? Under the Billboard Act, no. Two
identically situated signs about the same ideological
topic—one sign/speaker/message is allowed; the other
is not.

App. 29a
By favoring on-premises-related speech over speech
on but unrelated to the premises, the Billboard Act
“has the effect of disadvantaging the category of noncommercial speech that is probably the most highly
protected: the expression of ideas.” Ackerley Commc’ns.
of Mass., Inc. v. City of Cambridge, 88 F.3d 33, 37 (1st.
Cir. 1996). That Tennessee favors speech related to the
premises—intentionally or not—“does not justify
prohibiting an occupant from displaying its own
ideas. . . . Although the [State] may distinguish
between the relative value of different categories of
commercial speech, the [State] does not have the same
range of choice in the area of non-commercial speech to
evaluate the strength of, or distinguish between,
various communicative interests.” Metromedia, 453
U.S. at 513-15 (plurality). “The First Amendment’s
guarantee of free speech does not extend only to
categories of speech that survive [the State’s] ad hoc
balancing of relative social costs and benefits.” United
States v. Stevens, 559 U.S. 460, 470 (2010).
The Billboard Act is underinclusive also because it
discriminates against non-commercial speech on but
unrelated to the premises while allowing on-premises
commercial speech. Consider another scenario. A pet
store that sources its dogs from a notorious puppy mill
erects a sign on its premises that says: “We have the
most dogs around—and can always pump out more!
Come get one!” Such a sign would presumably qualify
for the on-premises exception because the message is
related to the on-premises commercial activity of the
pet store. But may the property owner across the
street, who offers no services regarding animals, erect
an otherwise identical sign that says: “Puppy Mills are

App. 30a
Animal Cruelty!”? Under the Billboard Act, no. Yet, in
this instance, the speech that would be allowed is
unsettling commercial advertising while the speech
prohibited is non-commercial protest. This contradicts
established First Amendment caselaw, which “ha[s]
consistently accorded non-commercial speech a greater
degree of protection than commercial speech.”
Metromedia, 453 U.S. at 513 (plurality).
Insofar as the [State] tolerates billboards at all,
it cannot choose to limit their content to
commercial messages; the [State] may not
conclude that the communication of commercial
information concerning goods and services
connected with a particular site is of greater
value than the communication of noncommercial messages.
Id. (plurality). That Tennessee allows some so-called
“on-premises non-commercial speech” does not save it
from this conclusion.
The rule against content discrimination forces
the government to limit all speech—including
speech the government does not want to
limit—if it is going to restrict any speech at all.
By deterring the government from exempting
speech [that] the government prefers, the
Supreme Court has helped to ensure that [the]
government only limits any speech when it is
quite certain that it desires to do so.
Rappa v. New Castle County, 18 F.3d 1043, 1063 (3d
Cir. 1994). By placing a burden “more heavily on
ideological than on commercial speech” the Billboard

App. 31a
Act represents “a peculiar inversion of First
Amendment values.” John Donnelly & Sons v.
Campbell, 639 F.2d 6, 15-16 (1st Cir. 1980) (finding
Maine billboard law underinclusive of non-commercial
speech).
Our review of the record and the language of the
Billboard Act leads to one more inescapable conclusion:
the on-premises exception is tailored to promote
Tennessee’s economic interests. Of all possible speech,
the on-premises exception allows for signage that
communicates messages that encourage commercial
patronage. Tennessee argues that this is sufficient
First Amendment protection—property owners can
choose to say whatever they want, so long as their
messages relate to the activities, goods, or services at the
premises—which reminds us of Henry Ford’s famous
quip about options for the original Model T: “Customers
can choose any color they want, so long as it is black.”
That there is some overlap between what the onpremises exception allows and what property owners
may choose to communicate does not mean that
Tennessee is safeguarding its citizens’ First
Amendment rights. Because the Billboard Act is
“hopelessly underinclusive,” it is not narrowly tailored
to further a compelling interest and thus is an
unconstitutional restriction on non-commercial speech.
See Reed, 135 S. Ct. at 2231.
E. Tennessee’s Policy Arguments
Tennessee also presses two policy concerns as if
they were legal arguments. First, Tennessee urges us
to pay special attention to the practical distinction
between billboards and signs, and include that in our

App. 32a
analysis. The Billboard Act and its attendant
regulations cover all signs near public roadways
regardless of whether those signs are situated on the
ground, mounted on business or residential buildings,
or affixed to billboard bases. The Act also regulates
billboard bases as structures, imposing certain size,
spacing, lighting, and safety requirements. Tennessee
complains that it will not be able to enforce these
content-neutral regulations of billboard bases if we
affirm the district court. Second, Tennessee complains
that if the on-premises exception is unconstitutional,
then it is henceforth powerless to regulate even
commercial signage.
As the district court explained, these are problems
for the Tennessee Legislature, not the courts. Thomas,
2017 WL 6489144, at *5. Indeed, in the wake of Reed,
state legislatures and municipal governments have
begun to preemptively cure their signage regulations to
satisfy the First Amendment. See, e.g., Indianapolis,
Ind. Code § 734 (Amended, Nov. 30, 2015); Ind. Code
§ 734-501(b) (amending definitions of on-premises, offpremises, and advertising signs to clarify that the
limitations “[do] not apply to the content of
noncommercial messages”); Geft Outdoor LLC v.
Consol. City of Indianapolis and Cnty. of Marion, Ind.,
187 F. Supp. 3d 1002, 1009 (S.D. Ind. 2016) (noting
that the city brought its regulations “into compliance
with Reed”); see also Tex. Transp. Code § 391.031, Tex.
S.B. 2006, 85th Leg., ch. 964 (S.B. 2006), §§ 6, 7, 33(3),
eff. June 15, 2017 (changing the prohibition from
“outdoor advertising” to only “commercial signs”).

App. 33a
Tennessee is free to regulate the erection and
attributes of billboard bases—and all other contentneutral aspects of signs—provided that it does so
without unconstitutional reference to the content of the
signage affixed to those billboard bases. Nothing in this
opinion disturbs that longstanding principle, which the
Court affirmed in Reed, 135 S. Ct. at 2232. But
Tennessee’s policy considerations are irrelevant to the
constitutional matter before this court.
III. CONCLUSION
The district court determined that the Tennessee
Billboard Act, as effectuated here by its non-severable
on-premises exception, is a content-based regulation of
free speech that cannot survive strict scrutiny and is,
therefore, unconstitutional. For the reasons stated in
the district court’s opinions and those elaborated upon
herein, we find that we agree and must AFFIRM.

App. 34a

APPENDIX B
IN THE UNITED STATES DISTRICT COURT
FOR THE WESTERN DISTRICT OF
TENNESSEE MEMPHIS DIVISION
CIVIL ACTION NO. 2:13-CV-02987
[Filed February 27, 2018]
____________________________________________
WILLIAM H. THOMAS, JR.,
)
)
Plaintiff,
)
)
v.
)
)
JOHN SCHROER, COMMISSIONER of
)
TENNESSEE DEPARTMENT OF
)
TRANSPORTATION, in his official Capacity,
)
)
Defendant.
)
____________________________________________ )
ORDER FINDING AS MOOT DEFENDANT’S
MOTION TO STAY, REFERRING MOTION TO
STRIKE TO MAGISTRATE JUDGE, AND
GRANTING MOTION TO WITHDRAW AS
ATTORNEY
Before the Court are three motions: Defendant John
Schorer’s Motion to Stay Judgment Pending Appeal
(ECF No. 384), Plaintiff William H. Thomas, Jr.’s

App. 35a
Motion to Strike Affidavits and Exhibits Attached to
Schorer’s Motion to Stay (ECF No. 392), and George
Fusner’s Motion to Withdraw as Attorney for William
H. Thomas, Jr. (ECF No. 399).
I.

Schorer’s Motion to Stay Judgment

Schorer seeks a stay of the Court’s judgment
pending appeal “to the extent the Court intended that
judgment to preclude the State from enforcing the
Billboard Act with respect to outdoor advertising other
than Plaintiff’s Crossroads Ford billboard.” (ECF
No. 385, PageID 7741 (emphasis original).) The Court
has considered the motion and has determined that it
is moot, and therefore cannot be granted or denied.
As recited in the controlling Complaint, Thomas’s
suit challenged the constitutionality of the Billboard
Act as applied to two of his billboards. (Pl.’s Second
Am. Compl., ECF No. 45, PageID 580.) After Thomas
prevailed at trial on the Crossroad Ford billboard, the
Court crafted injunctive relief commensurate with the
scope of the injury: the State of Tennessee was enjoined
from removing or seeking removal of Thomas’s
Crossroads Ford sign pursuant to the Billboard Act.
(Judgment, ECF No. 377.) The Court emphasized that
the injunction extends only to the Crossroads Ford
sign; the injunction does not even reach Thomas’s other
signs. (Order on Remedies, ECF No. 374, PageID 720810.) The State of Tennessee, therefore, is not precluded
from enforcing the Billboard Act with respect to
outdoor advertising other than the Crossroads Ford
billboard. Schorer’s motion seeks to stay enforcement
of relief that the Court did not grant. Accordingly, the
motion is DENIED AS MOOT.

App. 36a
II.

Thomas’s Motion to Strike Affidavits

This motion is hereby REFERRED to the assigned
Magistrate Judge for determination. The affidavits
were not necessary to the Court’s determination that
Schorer’s motion is moot, and were not relied upon in
reaching that conclusion.
III.

Fusner’s Motion to Withdraw as
Attorney

The Court has considered this motion and finds it welltaken. In light of the motion, the procedural posture of
the case, and Thomas’s appearance pro se in this
matter, the motion is GRANTED. George Fusner is
hereby terminated as counsel in the above-captioned
case.
SO ORDERED, this 27th day of February, 2018.
/s/ Jon P. McCalla
JON P. McCALLA
UNITED STATES DISTRICT JUDGE

App. 37a

APPENDIX C
IN THE UNITED STATES DISTRICT COURT
WESTERN DISTRICT OF TENNESSEE
WESTERN DIVISION
No. 13-cv-02987-JPM-cgc
[Filed October 6, 2017]
______________________________________
WILLIAM H. THOMAS, JR.,
)
)
Plaintiff,
)
)
v.
)
)
JOHN SCHROER, Commissioner of the )
Tennessee Department of Transportation )
in his official capacity,
)
)
Defendant.
)
______________________________________ )
JUDGMENT
JUDGMENT BY COURT. This action having come
before the Court on Plaintiff William H. Thomas, Jr.’s
Complaint, filed December 17, 2013 (ECF No. 1); the
issues in this case having been tried and an advisory
jury having rendered a verdict in favor of Defendant
the State of Tennessee (ECF No. 329); the Court having
entered the Order & Memorandum Finding Billboard

App. 38a
Act an Unconstitutional, Content-Based Regulation of
Speech (ECF No. 356); Defendant John Schorer having
filed a Rule 54(b) motion to reconsider the Court’s
ruling that the Tennessee Billboard Act is not
severable (ECF No. 371); the Court having denied that
motion (ECF No. 375); and all other matters in the case
having been decided,1
IT IS THEREFORE ORDERED, ADJUDGED, AND
DECREED that, in accordance with the Court’s Order
Finding Billboard Act an Unconstitutional, ContentBased Regulation of Speech (ECF No. 356), the State of
Tennessee and its agents are hereby enjoined from
removing or seeking removal of Plaintiff William H.
Thomas, Jr.’s Crossroads Ford sign pursuant to the
Billboard Regulation and Control Act of 1972
(“Billboard Act”), Tennessee Code Annotated §§ 54-21101, et seq. Thomas’s other requests for relief have
been denied or are now moot. (See ECF No. 374 at
PageIDs 7211, 7216, 7218.)
IT IS SO ORDERED, this 6th day of October, 2017.
/s/ Jon P. McCalla
JON P. McCALLA
UNITED STATES DISTRICT COURT JUDGE

1

This does not preclude motions for attorney’s fees pursuant to
Federal Rule of Civil Procedure 54(d)(2).

App. 39a

APPENDIX D
IN THE UNITED STATES DISTRICT COURT
WESTERN DISTRICT OF TENNESSEE
WESTERN DIVISION
No. 13-cv-02987-JPM-cgc
[Filed September 20, 2017]
______________________________________
WILLIAM H. THOMAS, JR.,
)
)
Plaintiff,
)
)
v.
)
)
JOHN SCHROER, Commissioner of the )
Tennessee Department of Transportation )
in his official capacity,
)
)
Defendant.
)
______________________________________ )
ORDER DENYING MOTION FOR
RECONSIDERATION AND ORDER
CONCERNING REMEDIES
Before the Court is Defendant John Schroer, in his
official capacity as Commissioner of the Tennessee
Department of Transportation (“TDOT”), (hereinafter
“the State”)’s Rule 54(b) Motion to Reconsider the
Court’s Ruling that the Tennessee Billboard Act is Not

App. 40a
Severable, filed May 17, 2017. (ECF No. 371.) Plaintiff
William H. Thomas, Jr. (“Thomas”) filed a response in
opposition on May 22, 2017. (ECF No. 373.) Also before
the Court is the issue of remedies in this action. (See
ECF Nos. 360, 361, 363, 364, 365, 368, 370, & 372.)
Thomas specifically requested injunctive relief,
declaratory relief, attorneys’ fees and costs, pre- and
post-judgment interest, restitution of real property,
reconsideration of the Court’s quasi-immunity
determination, and other additional relief. (ECF
No. 360.) For the reasons stated below, the Court
DENIES the State’s Motion Reconsider the Court’s
Ruling that the Tennessee Billboard Act is Not
Severable, and GRANTS in part and DENIES in part
Plaintiff’s requests for remedies.
I. BACKGROUND
A. Factual Background
This action concerns First Amendment violations
that occurred when agents of the State of Tennessee
(“the State”) sought to remove Plaintiff William H.
Thomas’s non-commercial billboard pursuant to the
Billboard Regulation and Control Act of 1972
(“Billboard Act”), Tennessee Code Annotated §§ 54-21101, et seq. (ECF No. 356.)
B. Procedural Background
On March 31, 2017, the Court found the Billboard
Act, as applied to Thomas’s non-commercial messages
on his Crossroads Ford sign, a violation of the Free
Speech provision of the First Amendment of the United
States Constitution. (ECF No. 356.) The Court
specifically found the Billboard Act’s distinction

App. 41a
between on-premises/off-premises signs, T.C.A. §§ 5421-103(1)-(3) and §§ 54-21-107(a)(1)-(2), constituted an
unconstitutional content-based restriction on speech.
The procedure and background preceding the Court’s
March 31, 2017 Order can be found at ECF No. 356 at
PageIDs 6911-19. Following the March 31, 2017 Order,
the Court entered an Order for Supplemental Briefing
on the Issue of Remedies. (ECF No. 357.) The parties
timely filed their briefs. (ECF Nos. 360, 365, 368.)
Plaintiff also moved for attorney’s fees and expenses
accrued by his former counsel, Webb, Klase & Lemond,
LLC on April 18, 2017. (ECF No. 361.) The State did
not respond.
The Court held a Telephonic Status Conference on
May 12, 2017 to discuss remedies. (Min. Entry, ECF
No. 369.) After discussion of the issues raised in the
parties’ briefs, the Court granted the parties leave to
file additional supplemental briefs and/or motions by
May 17, 2017 and responses by May 22, 2017. (Id.) The
parties made timely filings. (ECF Nos. 370-73.)
II. DISCUSSION
A. Motion to Reconsider Pursuant to Federal
Rule of Civil Procedure 54
The State moves for the Court to reconsider its
determination that the Billboard Act is not severable
because the Court “did not consider whether the State
should be allowed to continue enforcing the Billboard
Act with respect to commercial speech.” (ECF No. 371-2
at PageID 7173 (emphasis in original).) The State
specifically contends that because Plaintiff brought an
as-applied challenge, a severability analysis of the

App. 42a
Billboard Act is unnecessary. (Id. at PageID 7174.)
Alternatively, if the severability analysis applies, the
State argues the Billboard Act’s provisions application
to commercial speech should be severed from their
application to non-commercial speech. (Id. at PageIDs
7174-75.) Plaintiff contends he brought a facial and not
an as-applied challenge, and thus the State’s first
argument fails. (ECF No. 373 at PageID 7186.) Plaintiff
further avers the Billboard Act is not severable because
it not clear on the Billboard Act’s face that the
Tennessee legislature would have enacted it absent the
unconstitutional provisions. (Id. at PageIDs 7187-89.)
A district court has the inherent power to
reconsider, rescind, or modify an interlocutory order
before entry of a final judgment. Leelanau Wine
Cellars, Ltd. v. Black & Red, Inc., 118 Fed. App’x. 942,
945-46 (6th Cir. 2004) (citing Mallory v. Eyrich, 922
F.2d 1273, 1282 (6th Cir. 1991)). Pursuant to Rule
54(b) of the Federal Rules of Civil Procedure, “any
[interlocutory] order or other decision . . . may be
revised at any time before the entry of a judgment
adjudicating all the claims and all the parties’ rights
and liabilities.” Fed. R. Civ. P. 54(b); see also Rodriguez
v. Tenn. Laborers Health & Welfare Fund, 89 Fed.
App’x. 949, 959 (6th Cir. 2004) (“District courts have
authority both under common law and Rule 54(b) to
reconsider interlocutory orders and to reopen any part
of a case before entry of final judgment.”).
“Traditionally, courts will find justification for
reconsidering interlocutory orders when there is (1) an
intervening change of controlling law; (2) new evidence
available; or (3) a need to correct a clear error or
prevent manifest injustice.” Rodriguez, 89 Fed. App’x.

App. 43a
at 959. Parties may not use a motion for revision to
“repeat any oral or written argument made by the
movant in support of or in opposition to the
interlocutory order that the party seeks to have
revised.” LR 7.3(c).
In this district, motions for revision of interlocutory
orders are governed by Local Rule 7.3, which provides
that “any party may move, pursuant to Fed. R. Civ.
P. 54(b), for the revision of any interlocutory order
made by that Court on any ground set forth in
subsection (b) of this rule. Motions to reconsider
interlocutory orders are not otherwise permitted.” LR
7.3(a). Reconsideration of an interlocutory order is only
appropriate when the movant specifically shows:
(1) a material difference in fact or law from that
which was presented to the Court before entry of
the interlocutory order for which revision is
sought, and that in the exercise of reasonable
diligence the party applying for revision did not
know such fact or law at the time of the
interlocutory order; or (2) the occurrence of new
material facts or a change of law occurring after
the time of such order; or (3) a manifest failure
by the Court to consider material facts or
dispositive legal arguments that were presented
to the Court before such interlocutory order.
LR 7.3(b).
The State does not allege a material difference in
fact or law that it failed to bring to the Court’s
attention despite the State’s reasonable diligence, or
that new facts or a change in law have occurred since

App. 44a
the Court’s Order. Consequently, neither LR 7.3(b)(1)
or (2) apply. It appears that the State contends there
was “a manifest failure by the Court to consider
material facts or dispositive legal arguments that were
presented to the Court before such interlocutory order.”
LR 7.3(b)(3). But the State fails on this ground as well
because the argument that the Billboard Act is
severable with respect to commercial speech was not
presented to the Court prior to its March 31, 2017
Order. (See ECF Nos. 110, 163, 356.)
Accordingly, the Court DENIES the State’s Motion
to Reconsider the Court’s Ruling that the Tennessee
Billboard Act is Not Severable (ECF No. 371). The
Court, out of an abundance of caution, reiterates its
finding below.
Typically, when a portion of a state law is found to
be unconstitutional, the Court will sever that portion
from the remaining constitutional portions of the law.
Ayotte v. Planned Parenthood of N. New England, 546
U.S. 320, 328–29 (2006) (“Generally speaking, when
confronting a constitutional flaw in a statute, we try to
limit the solution to the problem. We prefer, for
example, to enjoin only the unconstitutional
applications of a statute while leaving other
applications in force ... or to sever its problematic
portions while leaving the remainder intact. . . .”). In
determining severability, “[f]irst, the Court seeks to
avoid ‘nullify[ing] more of a legislature’s work than is
necessary,’ because doing so ‘frustrates the intent of
the elected representatives of the people.’ For this
reason where partial, rather than facial, invalidation is
possible, it is the ‘required course.’” Northland Family

App. 45a
Planning Clinic, Inc. v. Cox, 487 F.3d 323, 333 (6th Cir.
2007) (quoting Ayotte, 546 U.S. at 329). Second,
“mindful that [the Court’s] constitutional mandate and
institutional competence are limited, [the Court]
restrain[s] [itself] from rewriting state law to conform
it to constitutional requirements even as [the Court]
strive[s] to salvage it.” Ayotte, 546 U.S. at 329 (internal
alteration and quotation marks omitted). “[W]here the
Court has established a bright line constitutional rule,
it is more appropriate to invalidate parts of the statute
that go beyond the constitutional line, whereas ‘making
distinctions in a murky constitutional context, or where
line-drawing is inherently complex, may call for a “far
more serious invasion of the legislative domain” than
we ought to undertake.’” Northland Family Planning
Clinic, 487 F.3d at 333 (quoting Ayotte, 546 U.S. at
330). “Finally, the Court considers legislative intent,
and inquires whether the legislature would prefer to
have part of the statute remain in force.” Id. “A court’s
conclusion that the legislature would have enacted a
statute absent an unconstitutional provision must be
based on evidence that is obvious on the ‘face of the
statute’ . . . ; otherwise the court risks overstepping
into functions reserved for the legislature.” E. Brooks
Books, Inc. v. City of Memphis, 633 F.3d 459, 466 (6th
Cir. 2011) (quoting Memphis Planned Parenthood, Inc.
v. Sundquist, 175 F.3d 456, 466 (6th Cir. 1999)).
The second and third factors control. Turning first
to the third factor, nothing indicates the Tennessee
legislature would have enacted the Billboard Act
without the unconstitutional provisions. Under
Tennessee law, severance of unconstitutional portions
of a statute is generally disfavored. Gibson Cty. Special

App. 46a
Sch. Dist. v. Palmer, 691 S.W.2d 544, 551 (Tenn. 1985)
(citing Smith v. City of Pigeon Forge, 600 S.W.2d 231
(1980)). “Tennessee law permits severance only when
‘it is made to appear from the face of the statute that the
legislature would have enacted it with the objectionable
features omitted,’” Memphis Planned Parenthood, Inc.
v. Sundquist, 175 F.3d 456, 466 (6th Cir. 1999)
(emphasis added) (citing State v. Harmon, 882 S.W.2d
352, 355 (Tenn. 1994)). “In determining whether a
provision should be severed, the proper inquiry is
whether the legislature “would choose, on the one
hand, having no [Billboard Act] at all and, on the other,
passing [the Billboard Act] without” subsections
§ 54–21–103(1) and §§ 54–21–107(a)(1)–(2). Memphis
Planned Parenthood, Inc., 175 F.3d at 466. Moreover,
the Tennessee Court of Appeals has specifically stated:
The inclusion by the legislature of a severability
clause in the statute is evidence of the
legislature’s intent that valid portions of the
statute be enforced where the court determines
that other portions are unconstitutional. State v.
Tester, 879 S.W.2d 823, 830 (Tenn. 1994).
However, there must be enough left of the
statute “for a complete law capable of
enforcement and fairly answering the object of
its passage.” Id. Further, “[w]here a clause is so
interwoven with other portions of an act that we
cannot suppose that the legislature would have
passed the act with that clause omitted, then if
such clause is declared void, it renders the whole
act null.” Id. (quoting Hart v. City of Johnson
City, 801 S.W.2d 512, 517 (Tenn. 1990)).

App. 47a
Am. Chariot v. City of Memphis, 164 S.W.3d 600, 605
(Tenn. Ct. App. 2004). The General Assembly has
approved severability by the enactment of a general
severability statute, which provides:
It is hereby declared that the sections, clauses,
sentences and parts of the Tennessee Code are
severable, are not matters of mutual essential
inducement, and any of them shall be exscinded
if the [C]ode would otherwise be
unconstitutional or ineffective. If any one (1) or
more sections, clauses, sentences or parts shall
for any reason be questioned in any court, and
shall be adjudged unconstitutional or invalid,
such judgment shall not affect, impair or
invalidate the remaining provisions thereof, but
shall be confined in its operation to the specific
provision or provisions so held unconstitutional
or invalid . . . .
Tenn.Code Ann. § 1–3–110 (2014). But “[t]his
legislative endorsement of severability ‘does not
automatically make it applicable to every situation
. . . .’” State v. Crank, 468 S.W.3d 15, 29 (Tenn. 2015)
(quoting In re Swanson, 2 S.W.3d 180, 189 (Tenn.
1999)). Severability “cannot be used as a license ‘to
completely re-write or make-over a statute.”’ Wells v.
State, No. E201501715COAR3CV, 2016 WL 7009209,
at *3 (Tenn. Ct. App. Dec. 1, 2016), appeal denied
(Feb. 7, 2017) (quoting Crank, 468 S.W.3d at 29).
In the instant case, there is no indication that the
General Assembly would have enacted the Billboard
Act without subsections § 54–21–103(1) and
§§ 54–21–107(a)(1)–(2), and there is no severability

App. 48a
clause in the Billboard Act. Moreover, the State does
not argue that the Court should sever these subsections
from the Billboard Act. Rather, the State argues that
the subsections should remain in place, but the
application of those subsections should be limited to
commercial speech, severing only the State’s ability to
apply those subsections to non-commercial speech.
(ECF No. 365 at PageID 7106.) In short, the
subsections should remain enforceable as to only
commercial speech. The State does not point to an
express intent by the legislature in the Billboard Act in
support of this separation, but contends that “[g]iven
the significant federal funding that hinges on the
State’s regulation of outdoor advertising, the General
Assembly no doubt would have preferred some
billboard regulations to none.” (ECF No. 365 at PageID
7108.)
The State also contends that there is “no
indication[] that concerns about non-commercial speech
were what prompted or induced the [Billboard Act’s]
legislation.” (Id.) Yet, the State concedes that “the
definition of ‘outdoor advertising’ in the Act is broad
enough to reach both commercial and non-commercial
speech. . . .” (ECF No. 365 at PageID 7108.) Moreover,
the Billboard Act defines “Outdoor advertising” as “any
outdoor sign, display, device, bulletin, figure, painting,
drawing, message, placard, poster, billboard or other
thing that is used to advertise or inform, any part of
the advertising or informative contents of which is
located within an adjacent area and is visible from any
place on the main traveled way of the state, interstate,
or primary highway systems.” Tenn. Code Ann.
§ 54–21–102(12). This argument also directly

App. 49a
contradicts the State’s previous argument that
exempting non-commercial speech from regulation, and
only regulating commercial speech, would not advance
the State’s interests because it would allow noncommercial signs to proliferate. (ECF No. 343 at
PageIDs 6797-98.) Preventing billboard proliferation,
the State argued, was central to the Billboard Act’s
function. (ECF No. 336 at PageIDs 6733-37.)
Accordingly, the State’s opportunistic argument that
the Billboard Act’s regulation of non-commercial speech
did not induce its legislation is not persuasive.
Accordingly, the Court declines (1) to find the
Billboard Act’s provisions concerning outdoor
advertising severable as to the challenged provisions or
(2) to sever the non-commercial application of those
provisions. The Billboard Act does not explicitly
address whether it could function without the onpremises/off-premises provision or without application
to non-commercial speech.
[A] conclusion by the Court that the Legislature
would have enacted the [Billboard Act] in
question with the objectionable features omitted
ought not to be reached unless such conclusion
is made fairly clear of doubt from the face of the
statute. Otherwise, its decree may be judicial
legislation. Probably that may be a reason why
the doctrine of elision is not favored.
Davidson Cty. v. Elrod, 191 Tenn. 109, 112, 232 S.W.2d
1, 2 (1950).
Similarly, the Court considers the rejection of the
same arguments regarding the Texas Highway

App. 50a
Beautification Act. Auspro Enterprises, LP v. Texas
Dep’t of Transportation, 506 S.W.3d 688, 702 (Tex.
App. 2016). The Texas Court of Appeals’ holding hinged
on the second factor—restraint from rewriting law. The
Texas Court held that finding the Texas billboard
statute unconstitutional as applied to non-commercial
speech did not permit the court to sever the statute’s
application to non-commercial speech while leaving its
application to commercial speech in place. The Texas
Court stated as follows:
The Department’s motion for rehearing
asserts that our remedy is unnecessarily broad
because it “prohibit[s] state regulations on
commercial speech” that were not implicated in
Reed or in the underlying facts of this case. The
Department urges us to leave standing
Subchapters B and C and sever only the State’s
ability to apply those subchapters to
noncommercial speech.
While we have acknowledged that Reed’s
holding seems to affect only restrictions of
noncommercial speech, the plain language of the
Texas Act defines “outdoor advertising” so
broadly that the Act’s restrictions on speech
apply to both commercial and noncommercial
speech. . . . Whatever the desirability of
rendering a judgment that merely severs the
Act’s application to noncommercial speech, such
a remedy would essentially rewrite the Act
contrary to its plain language with no indication
that the Legislature would have intended such
a resulting regulatory scheme. Moreover, such a

App. 51a
severance would present the risk of substituting
one set of constitutional problems for another.
Finally, we note that our opinion here does
not hold that the State lacks the power to
regulate billboards along Texas highways.
Rather, our opinion holds that under Reed the
Texas Highway Beautification Act’s outdooradvertising regulations and related Department
rules are, as written, unconstitutional “contentbased” regulations (as defined by Reed) of
noncommercial speech because they do not pass
strict-scrutiny analysis. The Legislature may see
fit to amend the Act in an attempt to conform to
Reed or to amend it such that it regulates only
commercial speech within the applicable
constitutional bounds. In short, it is for the
Legislature, not this Court, to clarify its intent
regarding the Texas Highway Beautification Act
in the wake of Reed.
Auspro Enterprises, LP v. Texas Dep’t of
Transportation, 506 S.W.3d 688, 706–07 (Tex. App.
2016).
For the same reasons, the Court finds that in the
instant case, it is for the Tennessee State
Legislature—and not this Court—to clarify the
Legislature’s intent regarding the Billboard Act in the
wake of Reed. Thus, the Court finds that the Billboard
Act is not severable, either by severing the challenged
provisions or by limiting the application of those
provisions to only commercial speech.

App. 52a
B. Remedies
After upholding the determination that the
Billboard Act is not severable, the Court now turns to
the Plaintiff’s remedies. In his original brief regarding
remedies, Thomas requested injunctive relief,
declaratory relief, attorneys’ fees and costs, pre- and
post-judgment interest, restitution of real property,
reconsideration of the Court’s quasi-immunity
determination, and other additional relief. (ECF
No. 360.) Thomas specifically requested that the Court
convert the preliminary injunction as to his Crossroads
Ford sign into a permanent injunction. (Id. at PageID
6960.) Thomas also requested a permanent injunction,
enjoining enforcement of the Billboard Act against any
of Thomas’s billboards in Tennessee. (Id.) Thomas also
sought declaratory relief, directing Commissioner
Schroer to dismiss all non-final, pending litigation with
prejudice at the cost of Defendant, granting Thomas
unrestricted access across the State of Tennessee’s
property for ingress and egress to his billboard with
permit nos. 79-3056 and 79-3057, and directing the
State notify all current state billboard permit holders
that the Tennessee Billboard Act has been held
unconstitutional in this proceeding and therefore the
Tennessee Billboard Act will no longer be enforced. (Id.
at PageIDs 6960-61.) Thomas further sought attorneys’
fees and costs. (Id. at PageID 6961.) Specifically,
Thomas sought such fees and costs associated with this
lawsuit, those associated with his Crossroads Ford
lawsuit in state court, and those associated with
defending other state law suits based on the Billboard
Act. (Id. at PageIDs 6993-95.)

App. 53a
After the May 12, 2017 status conference concerning
remedies (Min. Entry, ECF No. 369), however, Plaintiff
amended his request for relief. (ECF No. 370.) Thomas
conceded that he cannot seek either attorneys’ fees for
litigation in state court or pre-judgment interest. (Id. at
PageID 7165.) Thomas confirmed that he still seeks the
above-referenced injunctive relief—converting the
temporary injunction to a permanent injunction and
enjoining the State from interfering with any of
Thomas’s existing billboards or his erection of
billboards anywhere in the State of Tennessee—and
declaratory relief—directing Commissioner Schroer to
dismiss all non-final, pending litigation with prejudice
at the cost of Defendant. (Id. at 7161.) Thomas further
contends he made a facial overbreadth challenge to the
Billboard Act rather than an as-applied challenge, and
that as a result, his relief should be more expansive
than the relief available in an as-applied challenge. (Id.
at PageIDs 7163-65.)
The State contends Plaintiff’s Amended Complaint
did not seek declaratory relief as to all of Plaintiff’s
billboards, but only as to his Crossroads Ford and
Perkins Road signs containing non-commercial speech.
(ECF No. 372 at PageIDs 7179-80.) The State further
argues that Plaintiff did not request such relief in the
pretrial order. (Id. at PageID 7180.) Additionally, the
State contends that Plaintiff brought only an asapplied challenge, and even if he had brought both an
as-applied and facial challenge, it would be imprudent
for the Court to find the Billboard Act facially invalid
if the Court found the Billboard Act invalid as-applied.
(Id. at PageIDs 7181-82.) The Court first addresses
whether Thomas sufficiently brought a facial rather

App. 54a
than as-applied challenge, and then addresses each
claim of relief sought by Plaintiff.
1. Facial vs. As-Applied Challenges Under
First Amendment
Despite not asserting a facial challenge in his
original Complaint in 2013 (ECF No. 1), his Amended
Complaint in 2014 (ECF No. 45), or in his motion for
summary judgment (ECF No. 142-1 at PageID 1871
(“This Honorable Court is currently deciding whether
the provisions of the Billboard Act under which
Defendant Schroer acted regarding[] all the above
stated properties are in fact unconstitutional.”)),
Plaintiff now contends he “has made a valid facial and
as-applied challenge to the Tennessee Billboard Act
based upon the First Amendment.” (ECF No. 370 at
PageID 7165.) Plaintiff asserts that he made a valid
facial challenge when he “took issue with the Act’s
other exemptions,” “challenged the Act’s on-premises
exemption” as content-based, and made “a facial
challenge to the entire Act” in the pre-trial order. (Id.
(emphasis in original).) Plaintiff then cites to authority
pertaining to facial challenges and the overbreadth
doctrine. (Id. at PageIDs 7163-64.)
As a threshold matter, the Court defines the
parameters of facial and overbreadth challenges. A
facial challenge can succeed only “by establishing that
no set of circumstances exists under which the Act
would be valid, i.e., that the law is unconstitutional in
all of its applications.” Wash. State Grange v. Wash.
State Republican Party, 552 U.S. 442, 449 (2008)
(quotation marks and alteration omitted); United
States v. Salerno, 481 U.S. 739, 745 (1987). An

App. 55a
overbreadth challenge, on the other hand, requires a
showing that a “substantial number of [a statute’s]
applications are unconstitutional, judged in relation to
[its] plainly legitimate sweep.” Wash. State Grange,
552 U.S. at 449 n.6 (quotation marks omitted). “The
difference is between having to show that all
applications of the statute are unconstitutional and
having to show that a substantial number of them are.
[An as-applied challenge] is still a difficult showing to
make, and the burden of making it is on the
challenger.” United States v. Martinez, 736 F.3d 981,
991 (11th Cir. 2013) (Carnes, C.J., concurring), vacated
on other grounds, Martinez v. United States, 135 S.Ct.
2798 (2015). Generally, courts strongly disfavor facial
challenges:
Claims of facial invalidity often rest on
speculation. As a consequence, they raise the
risk of premature interpretation of statutes on
the basis of factually barebones records. Facial
challenges also run contrary to the fundamental
principle of judicial restraint that courts should
neither anticipate a question of constitutional
law in advance of the necessity of deciding it nor
formulate a rule of constitutional law broader
than is required by the precise facts to which it
is to be applied. Finally, facial challenges
threaten to short circuit the democratic process
by preventing laws embodying the will of the
people from being implemented in a manner
consistent with the Constitution.
Wash. State Grange v. Wash. State Republican Party,
552 U.S. 442, 450–51 (2008).

App. 56a
Upon review of the record, it is clear that Plaintiff
has not alleged the Billboard Act is unconstitutional in
all its applications, or even unconstitutional as to a
substantial number of applications. In this way,
Plaintiff has not met his burden. Nevertheless, the
Court assesses whether Plaintiff’s claim is as-applied
or facial.
The Supreme Court has recognized that facial and
as-applied challenges are not mutually exclusive or
diametric constructs, because a First Amendment
claim may plausibly have both characteristics. John
Doe No. 1 v. Reed, 561 U.S. 186, 194 (2010). In the
claim at issue in John Doe No. 1 v. Reed, the plaintiffs
averred that the public-records statute (“PRA”)
“violates the First Amendment as applied to
referendum petitions.” Id. at 194 (quoting Count I of
the Complaint). The Court recognized that
[t]he claim is “as applied” in the sense that it
does not seek to strike the PRA in all its
applications, but only to the extent it covers
referendum petitions. The claim [also] is “facial”
in that it is not limited to plaintiffs’ particular
case, but challenges application of the law more
broadly to all referendum petitions.
Id. The Court then offered guidance on how—in the
face of such duality—to determine which analytical
construct is most appropriate for resolution of the
underlying substantive claim. It began by observing
that “[t]he label [i.e., facial or as-applied] is not what
matters.” Id. “The important point” is whether the
“plaintiffs’ claim and the relief that would follow . . .
reach beyond the particular circumstances of the [ ]

App. 57a
plaintiffs.” Id. The Court concluded that the plaintiffs’
claim and relief reached beyond the plaintiffs’
particular circumstances, where the plaintiffs sought
in the claim at issue “an injunction barring the
secretary of state ‘from making referendum petitions
available to the public,’” not just an injunction barring
the public disclosure of the referendum petition
involving them. Id. (quoting Count I of the Complaint).
The Court concluded that, irrespective of the “label”
that the plaintiffs attached to their claim, “[t]hey must
therefore satisfy our standards for a facial challenge to
the extent of that reach.” Id.
In short, the expanse of the claim is dictated by the
relief sought by the plaintiff. Discount Tobacco City &
Lottery, Inc. v. United States, 674 F.3d 509, 522 (6th
Cir. 2012) (“In this case, Plaintiffs label their claims as
both facial and as-applied challenges to the Act, but
because the ‘plaintiffs’ claim and the relief that would
follow . . . reach beyond the particular circumstances of
these plaintiffs,’ the claims that are raised are properly
reviewed as facial challenges to the Act.” (quoting John
Doe No. 1 v. Reed, 561 U.S. at 194)); Showtime Entm’t,
LLC v. Town of Mendon, 769 F.3d 61, 70 (1st Cir. 2014)
(holding that facial standards apply, stating “[w]e
understand the relief sought here to be the invalidation
of the zoning bylaws, not merely a change in their
application to Showtime[;] . . . . it is clear that this is a
request that ‘reach[es] beyond’ the precise
circumstances of Showtime’s license application” (third
alteration in original) (quoting John Doe No. 1 v. Reed,
561 U.S. at 194, 130 S.Ct. 2811)); Catholic Leadership
Coal. of Tex. v. Reisman, 764 F.3d 409, 426 (5th Cir.
2014) (“[T]o categorize a challenge as facial or as-

App. 58a
applied we look to see whether the ‘claim and the relief
that would follow . . . reach beyond the particular
circumstances of the [ ] plaintiffs.’ If so, regardless of
how the challenge is labeled by a plaintiff, ‘[t]hey must
therefore satisfy our standards for a facial challenge to
the extent of that reach.’” (second and third alterations
in original) (citation omitted) (quoting John Doe No. 1
v. Reed, 561 U.S. at 194, 130 S.Ct. 2811)); Am. Fed’n of
State, Cty. & Mun. Emps. Council 79 v. Scott, 717 F.3d
851, 862 (11th Cir. 2013) (“We look to the scope of the
relief requested to determine whether a challenge is
facial or as-applied in nature.”); United States v.
Supreme Court of New Mexico, 839 F.3d 888, 914 (10th
Cir. 2016).
In the instant case, Thomas sought relief only
concerning himself and his own signs. (ECF No. 45.)
Specifically, the relief Thomas sought, in its entirety,
is:
(1) For this Court to find that the Defendants
have violated [Plaintiff’s] free speech rights;
(2) For this Court to find that the Defendants
have violated [Plaintiff’s] equal protection
rights;
(3) For a declaration that [Plaintiff’s] sign at
Perkins Road was displaying on-premise,
constitutionally protected speech that was
exempt from the permitting requirements of
T.C.A. § 54-21-104 and an order requiring
Defendants to return said sign to Plaintiff;

App. 59a
(4) For a prospective declaration that [Plaintiff’s]
sign at Crossroads Ford is displaying onpremise, constitutionally protected speech that
is exempt from the permitting requirements of
T.C.A. § 54-21-104;
(5) For prospective injunctive relief preventing
Defendants from continuing to pursue their
Chancery Court action against [Plaintiff] until
this matter is concluded;
(6) For an award of such damages, including
punitive damages against the Individual
Defendants, as are authorized by law;
(7) For an award against the Defendants,
pursuant to 42 U.S.C. § 1988, of all reasonable
costs and attorneys’ fees incurred by Plaintiff in
defending its constitutional rights;
(8) For a trial by jury on any issue that should
not be resolved by the Court as a matter of law;
and
(9) For such other and further relief as the Court
may deem just and equitable.
(Id. at PageIDs 580-81.)
Without doubt, the relief sought by Plaintiff
narrows his claim to an as-applied challenge.
Accordingly, the Court declines to construe Plaintiff’s
claim as a facial challenge; not only did Plaintiff failed
to satisfy his burden in bringing either a facial or

App. 60a
overbreadth claim, but he also failed to request relief
beyond his particular circumstances.
Having concluded Plaintiff claim is as-applied and
not facial, the Court turns to Plaintiff’s remedies.
2. Injunctive Relief
Both parties have briefed the merits of Plaintiff’s
request for injunctive relief. However, the threshold
issue is whether Plaintiff waived his claims for
injunctive relief by failing to include those claims in the
Joint Pretrial Order.
The State contends the injunctive relief sought by
Thomas is overly broad, and that any injunctive relief
should be limited to the Billboard Act’s application to
Thomas’s non-commercial signs. (ECF No. 365 at
PageID 7110.) Before determining whether Thomas’s
requested injunctive relief is overly broad, however, the
Court addresses waiver and timeliness.
The Supreme Court has held that a final pretrial
order supersedes all prior pleadings and controls the
subsequent course of the action. Rockwell Int’t Corp. v.
U.S., 549 U.S. 457, 474 (2007). Accordingly, if a request
for injunctive relief is not included in the final pretrial
order, it is ordinarily deemed to be waived. Id. (citing
Wilson v, Muckala, 303 F.3d 1207, 1215 (10th Cir.
2002)). See also Alexander v. Riga, 208 F.3d 419 (3rd
Cir. 2000), cert. denied, 531 U.S. 1069 (2001) (holding
that plaintiffs who sought injunctive relief in their
complaint, but failed to raise the issue again until six
days after the jury rendered a verdict, waived the
claim); see Miami Valley Fair Hous. Ctr., Inc. v. Connor

App. 61a
Grp., No. 3:10-CV-83, 2015 WL 9582550, at *4 (S.D.
Ohio Dec. 31, 2015).
In the instant case, Thomas did not request any
injunctive relief in the pre-trial order. (See ECF
No. 287.) Accordingly, the Court could find that
Thomas has waived his right to injunctive relief in this
matter. However, the Court does not find such a waiver
as to the conversion of Thomas’s temporary restraining
order into a permanent injunction, because the failure
to include such relief in the pre-trial order likely arises
from mistake, and was not intentional. Moreover, the
issue before the jury was the strict scrutiny inquiry,
and not the case as a whole.
Nevertheless, the Court finds that Thomas’s new
request to enjoin the State from enforcing the Billboard
Act as to any of Thomas’s signs is untimely. Our sister
courts reject untimely claims for injunctive relief. See
Alexander v. Riga, 208 F.3d 419 (3rd Cir. 2000)
(rejecting a claim for injunctive relief asserted after
trial that was not included in the pretrial order as
untimely); Carpet Group Intern. v. Oriental Rug
Importers Ass’n, 2005 WL 3988699, at *8 (D. N.J.
2005), aff’d, 173 Fed. Appx. 178 (3rd Cir. 2006)
(disallowing a petition to enjoin what the jury found to
be anticompetitive conduct, because plaintiffs “did not
assert their prayer for injunctive relief in the final
pretrial order nor in the trial brief”); Florida v.
Elsberry, 1985 WL 6278 (N.D. Fla. 1985) (holding that
a plaintiff waived the request for injunctive relief in its
complaint and amended complaint, where it did not
reiterate that claim anywhere in the exhaustive

App. 62a
pretrial stipulation or mention it in any of the pretrial
conferences or orders).
Even if the Court considered Thomas’s request to
enjoin the State from enforcing the Billboard Act as to
any of Thomas’s signs to be timely, the Court declines
to grant such relief, because it is not narrowly tailored
to the as-applied constitutional violation found in the
instant case.
While district courts have broad discretion when
fashioning injunctive relief, their powers are not
boundless. “Once a constitutional violation is found, a
federal court is required to tailor the scope of the
remedy to fit the nature and extent of the
constitutional violation.” Dayton Bd. of Educ. v.
Brinkman, 433 U.S. 406, 420, 97 S.Ct. 2766, 53 L.Ed.2d
851 (1977) (internal quotations omitted); see Missouri
v. Jenkins, 515 U.S. 70, 88, 115 S.Ct. 2038, 132 L.Ed.2d
63 (1995) (“[T]he nature of the ... remedy is to be
determined by the nature and scope of the
constitutional violation.” (internal quotations omitted)).
This is especially true in the as-applied challenge
context, where both the inquiry and relief focus on the
fact-specific harm. Ross v. Duggan, 402 F.3d 575, 583
(6th Cir. 2004) (“In an as-applied challenge, the
plaintiff contends that application of the statute in the
particular context in which he has acted, or in which he
proposes to act, would be unconstitutional. Therefore,
the constitutional inquiry in an as-applied challenge is
limited to the plaintiff’s particular situation.”) (citation
omitted); Legal Aid Servs. of Oregon v. Legal Servs.
Corp., 608 F.3d 1084, 1096 (9th Cir. 2010) (“An asapplied First Amendment challenge contends that a

App. 63a
given statute or regulation is unconstitutional as it has
been applied to a litigant’s particular speech activity.”).
When evaluating an as-applied challenge, the court’s
inquiry and potential relief focuses only on the
particular application challenged. Edenfield v. Fane,
507 U.S. 761, 770, 113 S.Ct. 1792, 123 L.Ed.2d 543
(1993).
Such a limit on injunctive relief is appropriate in
light of the four-factor inquiry courts must balance
before granting a permanent injunction:
(1) that [Plaintiff] has suffered an irreparable
injury; (2) that remedies available at law, such
as monetary damages, are inadequate to
compensate for that injury; (3) that, considering
the balance of hardships between the plaintiff
and defendant, a remedy in equity is warranted;
and (4) that the public interest would not be
disserved by a permanent injunction.
eBay Inc. v. MercExchange, L.L.C., 547 U.S. 388, 391,
126 S.Ct. 1837, 164 L.Ed.2d 641 (2006) (citations
omitted). Thomas has not met this burden. In fact,
Thomas’s briefs do not even address these factors, nor
the appropriateness of permanent injunctive relief as
to the application of the Billboard Act to any kind of
sign in this case. Without a showing by Thomas of his
entitlement to permanent injunctive relief, the court is
unable to exercise its discretion in granting such relief.
See Swaffer v. Cane, 610 F. Supp. 2d 962, 971 (E.D.
Wis. 2009).
In sum, the Court finds that a permanent injunction
is warranted against the enforcement of the Billboard

App. 64a
Act as to Thomas’s Crossroads Ford sign. (See Order
Granting Preliminary Injunction for Crossroads Ford
Sign, ECF No. 163.) The Court finds that a permanent
injunction against the enforcement of the Billboard Act
as to any of Thomas’s other signs is not warranted, as
this injunctive relief is either waived or untimely, and
even if not waived or untimely such an injunction
constitutes impermissible relief under the as-applied
challenge.
3. Declaratory Relief
Under the Declaratory Judgment Act, 28 U.S.C.
§§ 2201–02, “any court of the United States, upon the
filing of an appropriate pleading, may declare the
rights and other legal relations of any interested party
seeking such declaration. . . .” 28 U.S.C. § 2201. The
Federal Rules of Civil Procedure “govern the procedure
for obtaining a declaratory judgment under 28 U.S.C.
§ 2201.” Fed.R.Civ.P. 57. Accordingly, “the
requirements of pleading and practice in actions for
declaratory relief are exactly the same as in other civil
actions;” thus, “the action is commenced by filing a
complaint.” 10B Charles Alan Wright, Arthur R. Miller
& Mary Kay Kane, Federal Practice and Procedure
§ 2768 (3ed.1998). In other words, “[a] request for
declaratory relief is properly before the court when it is
pleaded in a complaint for declaratory judgment.
Requests for declaratory judgment are not properly
before the court if raised only in passing, or by motion.”
Arizona v. City of Tucson, 761 F.3d 1005, 1010 (9th Cir.
2014) (citation omitted).

App. 65a
In the instant case, Thomas did not seek declaratory
relief directing Commissioner Schroer to dismiss all
non-final, pending litigation with prejudice at the cost
of Defendant in his Amended Complaint. He is
therefore precluded from seeking such relief now.
The declaratory relief sought in the Amended
Complaint was two-fold: (1) a declaration that
Plaintiff’s “Perkins Road [sign] was displaying onpremise, constitutionally protected speech that was
exempt from the permitting requirements of T.C.A.
§ 54-21-104 and an order requiring Defendants to
return said sign to Plaintiff;” and (2) “that his sign at
Crossroads Ford is displaying on-premise,
constitutionally protected speech that is exempt from
the permitting requirements of T.C.A. § 54-21-104.”
(ECF No. 45 at PageID 580.) These requests for relief
are now moot in light of the Court’s March 31, 2017
Order. (ECF No. 356.)
3. Attorneys’ Fees and Costs
Thomas seeks costs and attorneys’ fees under 42
U.S.C. § 1988. The State argues that Thomas’s fees and
costs “should be reduced accordingly based on the
limited success that Plaintiff achieved.” (ECF No. 365
at PageID 7716.)
a. Attorneys’ Fees
In general, a prevailing party is entitled to costs,
but not attorneys’ fees. See Fed.R.Civ.P. 54(d).
However, the Civil Rights Attorneys’ Fees Awards Act
of 1976, as amended, 42 U.S.C. § 1988, grants the court
discretion to award reasonable attorneys’ fees to the
prevailing party in an action brought pursuant to 42

App. 66a
U.S.C. § 1983. A prevailing party is one that succeeds
“on any significant issue in litigation which achieves
some of the benefit the parties sought in bringing suit.”
Farrar v. Hobby, 506 U.S. 103, 109, 113 S.Ct. 566, 121
L.Ed.2d 494 (1992) (citation omitted) (interpreting 42
U.S.C. § 1988). Although the Court has not granted all
the relief Plaintiff sought in this case, the Court
considers Plaintiff to be the prevailing party under 42
U.S.C. § 1988(b), and will allow Plaintiff to seek
reasonable attorneys’ fees as part of its costs. See
Green Party of Tennessee v. Hargett, 767 F.3d 533 (6th
Cir. 2014); Woods v. Willis, 631 F. App’x 359, 364 (6th
Cir. 2015) (“[T]he plaintiff must have ‘been awarded
some relief by the court,’ resulting in the plaintiff
receiving a ‘judicially sanctioned change in the legal
relationship of the parties.’”). Having found that
Thomas is entitled to a permanent injunction
preventing the enforcement of the Billboard Act as to
the non-commercial messages displayed on his
Crossroads Ford sign, Thomas is the prevailing party,
and thus the Court finds that reasonable attorneys’
fees are appropriate.
Thomas also seeks a “multiplier of the fee award
because of Defendant’s complete disregard of the
Supreme Court’s decision in Reed. . . .” (ECF No. 360 at
PageID 6964.) Although the Court finds Thomas is
entitled to fees, “multipliers, or fee enhancements to
the lodestar calculation, are permissible [only] in some
cases of ‘exceptional success.’” Barnes v. City of
Cincinnati, 401 F.3d 729, 745 (6th Cir. 2005) (quoting
Blum v. Stenson, 465 U.S. 886, 895 (1984)); see also
Perdue v. Kenny A. ex rel. Winn, 559 U.S. 542, 552
(2010) (“[E]nhancements may be awarded in ‘rare’ and

App. 67a
‘exceptional’ circumstances.”). The party seeking to
enhance attorney fees “bears the burden of showing
that such an adjustment is necessary to the
determination of a reasonable fee.” Gonter v. Hunt
Valve Co., 510 F.3d 610, 621 (6th Cir. 2007) (internal
quotations and citations omitted). In fact, “a fee
applicant seeking an enhancement must produce
‘specific evidence’ that supports the award.” Perdue,
559 U.S. at 553. The Sixth Circuit Court of Appeals
considers the same twelve factors1 as it does in
adjusting a lodestar award to determine the
appropriateness of a fee enhancement in cases of
exceptional success. Barnes v. City of Cincinnati, 401
F.3d at 745-46 (citing Johnson v. Georgia Highway
Express, Inc., 488 F.2d 714, 717-19 (5th Cir. 1974))
(affirming a 75% enhancement because the district
court found that counsel could not be obtained without
applying this multiplier); see also Guam Soc’y of
Obstetricians & Gynecologists v. Ada, 100 F.3d 691,

1

The twelve factors are as follows:
(1) the time and labor required; (2) the novelty and
difficulty of the questions; (3) the skill requisite to perform
the legal service properly; (4) the preclusion of other
employment by the attorney due to the acceptance of the
case; (5) the customary fee; (6) whether the fee is fixed or
contingent; (7) time limitations imposed by the client or
the circumstances; (8) the amount involved and the results
obtained; (9) the experience, reputation, and ability of the
attorneys; (10) the undesirability of the case; (11) the
nature and length of the professional relationship with the
client; (12) and awards in similar cases.

Paschal v. Flagstar Bank, FSB, 297 F.3d 431, 435 (6th Cir. 2002)
(quoting Blanchard v. Bergeron, 489 U.S. 87, 91 n.5 (1989)).

App. 68a
697 (9th Cir. 1996) (noting that a 100% fee
enhancement was appropriate in part because of the
“likelihood that no other attorney . . . would have
accepted the case”). In the majority of cases, the
lodestar amount already reflects these factors within
the Court’s calculation of a reasonable hourly rate and
hours billed. See Gonter, 510 F.3d at 621; Blum, 465
U.S. at 898. Accordingly, “an enhancement may not be
awarded based on a factor that is subsumed in the
lodestar calculation. . . .” Perdue, 559 U.S. at 553. Nor
should “the novelty and complexity of a case generally
. . . be used as a ground for an enhancement because
these factors presumably [are] fully reflected in the
number of billable hours recorded by counsel.” Id.
(internal quotation marks and citations omitted).
“[T]he quality of an attorney’s performance generally
should [also] not be used to adjust the lodestar
[b]ecause considerations concerning the quality of a
prevailing party’s counsel’s representation normally
are reflected in the reasonable hourly rate.” Id.
(internal quotation marks and citations omitted).
Despite the “strong presumption” that the lodestar
figure is reasonable, the presumption may be overcome
in the rare circumstances where the lodestar figure
does not adequately take into account a factor that may
be considered to determine fees. Id. at 554. The
Supreme Court has set out three examples of such
factors: (1) “the method used in determining the hourly
rate employed in the lodestar calculation does not
adequately measure the attorney’s true market value;”
(2) “the attorney’s performance includes an
extraordinary outlay of expenses and the litigation is
exceptionally protracted;” or (3) “an attorney’s

App. 69a
performance involves exceptional delay in the payment
of fees.” Id. at 554-55.
In the instant case, Thomas has failed to produce
‘specific evidence’ that supports how this case rises to
an exceptional level requiring a multiplier of the
attorneys’ fee award. Plaintiff’s assertion that the State
disregarded Reed has no impact under either a lodestar
or multiplier analysis. Accordingly, the Court DENIES
Thomas’s request for a multiplier of the attorneys’ fees
award.
As to the attorneys’ fees award, the only motion
pending is by Webb, Klase & Lemond, LLC, Thomas’s
former counsel, filed on April 18, 2017. (ECF No. 361.)
The State filed no response. Thus, the amount of
attorneys’ fees articulated by Webb, Klase & Lemond,
LLC is not at issue before this Court because the State
elected not to contest it. Nevertheless, based on a
thorough review of the information and supporting
documents before the Court, in conjunction with an
analysis of the aforementioned lodestar factors, the
Court finds that the hours expended and rates charged
by Plaintiff’s attorneys are reasonable, and expenses
requested are recoverable. Accordingly, the Court
GRANTS Thomas $83,322.50 in attorneys’ fees
accrued by Webb, Klase & Lemond, LLC. (See ECF
No. 361-1 at PageID 6983.)
b. Costs
Fed. R. Civ. P. 54(d) creates a presumption that the
cost of litigation will be awarded to the prevailing party

App. 70a
unless the Court finds otherwise, and 28 U.S.C. § 19202
sets forth the scope of costs that are properly
recoverable. The only specific costs sought are those
articulated by Webb, Klase & Lemond, LLC, Thomas’s
former counsel, in its Motion for Attorneys’ Fees and
Expenses. (ECF No. 361.) Finding the expenses include
primarily filing fees, deposition transcript fees, copies,
and postage, and that the proposed expenses are not
opposed, the Court GRANTS Thomas $1,543.11 in
costs accrued by Webb, Klase & Lemond, LLC. (Id. at
PageID 6984.)
4. Post-Judgment Interest
Thomas also requests post-judgment interest. (ECF
No. 360 at PageID 6965.) Title “28 U.S.C. § 1961(a)
requires district courts to award post-judgment interest
on all money judgments.” Spizizen v. Nat’l City Corp.,
516 Fed.Appx. 426, 432 (6th Cir. 2013) (emphasis
added). As this Order awards only the attorneys’ fees
2

28 U.S.C. § 1920 states:
A judge or clerk of any court of the United States may tax
as costs the following:
(1) Fees of the clerk and marshal;
(2) Fees for printed or electronically recorded transcripts
necessarily obtained for use in the case;
(3) Fees and disbursements for printing and witnesses;
(4) Fees for exemplification and the costs of making copies
of any materials where the copies are necessarily obtained
for use in the case;
(5) Docket fees under section 1923 of this title;
(6) Compensation of court appointed experts,
compensation of interpreters, and salaries, fees, expenses,
and costs of special interpretation services under section
1828 of this title.

App. 71a
and costs expressed in Webb, Klase & Lemond, LLC’s
motion, the Court only grants post-judgment interest
as those monetary awards. Accordingly, the Court
GRANTS Thomas post-judgment interest to the
monetary awards in this Order.
5. Restitution of Real Property
Thomas also requests “restitution of real property”
(ECF No. 360 at PageID 6966), such as replacement
and re-installation of billboards unrelated to this action
at the State’s cost (id. at PageID 6968). This request
goes beyond the issues before this Court, and also goes
far beyond the limits of Ex parte Young, 209 U.S. 123
(1908). Plaintiff cannot avoid Eleventh Amendment
immunity by presenting his claim for relief as an
equitable remedy. In Edelman v. Jordan, 415 U.S. 651
(1974), the Supreme Court held that the Eleventh
Amendment barred the recovery of “equitable
restitution” in the form of the retroactive release and
payment of AABD (Aid to the Aged, Blind, and
Disabled) benefits wrongfully withheld by the State of
Illinois. The Supreme Court explained that the funds
to satisfy such an award would inevitably be paid from
the general revenues of the State of Illinois, not the
pocket of the named defendants, and that such relief
would run afoul of the Eleventh Amendment. Id. at
665. Responding to the argument that the award was
in the form of “equitable restitution,” the Supreme
Court stated:
We do not read Ex parte Young or subsequent
holdings of this Court to indicate that any form
of relief may be awarded against a state officer,
no matter how closely it may in practice

App. 72a
resemble a money judgment payable out of the
state treasury, so long as the relief may be
labeled ‘equitable’ in nature. The Court’s opinion
in Ex parte Young hewed to no such line.
Id. at 666. The relief requested by Thomas is similar to
the relief denied in Edelman. Thomas’s relief
necessitates that the costs derive from the state. Also,
the relief would impermissibly provide retroactive
relief, running afoul of the Eleventh Amendment. Thus,
the Court DENIES Thomas’s relief for restitution of
real property.
3. Damages
Thomas also seeks damages, requesting the court
revisit its determination that Schroer is entitled to
qualified immunity (ECF No. 170). (ECF No. 360 at
PageID 6969.) The Court construes Thomas’s request
to “revisit” as a motion for reconsideration. As stated
above, reconsideration of an interlocutory order is
appropriate only when the movant specifically shows:
(1) a material difference in fact or law from that
which was presented to the Court before entry of
the interlocutory order for which revision is
sought, and that in the exercise of reasonable
diligence the party applying for revision did not
know such fact or law at the time of the
interlocutory order; or (2) the occurrence of new
material facts or a change of law occurring after
the time of such order; or (3) a manifest failure
by the Court to consider material facts or

App. 73a
dispositive legal arguments that were presented
to the Court before such interlocutory order.
LR 7.3(b).
Thomas specifically seeks relief under LR
7.3(b)(2)—change of law occurring after the time of the
order to be reconsidered. (ECF No. 360 at PageID
6969.) Thomas, however, fails to point to any change in
law after the Court made its determination that
Defendant Schroer was entitled to qualified immunity
in its October 2, 2015 Order. (ECF No. 170.) Moreover,
the Court finds that its March 31, 2017 Order does not
affect its analysis of Schroer’s qualified immunity. As
stated in the Court’s October 2, 2015 determination,
“[t]he protection of qualified immunity applies
regardless of whether the government official’s error is
a mistake of law, a mistake of fact, or a mistake based
on mixed questions of law and fact.” Pearson v.
Callahan, 555 U.S. 223, 231 (2009) (internal quotation
marks omitted). Moreover, a constitutional right is
clearly established if a reasonable person in the
official’s position would have known of the right.
Scarbrough v. Morgan Cnty. Bd. of Educ., 470 F.3d 250,
263 (6th Cir. 2006). In fact, until March 31, 2017, no
binding precedent existed that expressly addressed the
constitutionality of the Billboard Act and the First
Amendment issues raised by Thomas. Thus, the fact
that the Court ultimately came to that conclusion in
this case does not change the fact that Schroer would
not have known of this right prior to the Court’s order.
Rather, the only binding precedent, which pre-dated
Reed, seemed to support the contrary proposition. See
Wheeler v. Comm’r of Highways, Commonwealth of

App. 74a
Ky., 822 F.2d 586 (6th Cir. 1987). Thus, the Court finds
Schroer remains entitled to qualified immunity, and
thus DENIES Thomas’s construed motion to
reconsider.
4. Additional Relief
Finally, Thomas makes three additional requests:
(1) a hearing to determine whether Defendant Schroer
violated Thomas’s First Amendment Rights by using a
false affidavit by Richard Copeland when he knew
Copeland had no legal authority to provide such
affidavit based upon Ted Illsley’s letter confirming the
zoning and Thomas’s authorization to use the Perkins
Road sign structure; (2) a hearing on whether Thomas’s
constitutional rights of free speech and due process
were violated when former Commissioner Nicely
reversed and remanded Administrative Judge
Hornsby’s order of December 8, 2006; and (3) an
additional remedy hearing before the Court on his offer
of proof (ECF No. 262). (ECF No. 360 at PageID 6971.)
None of these requests are properly brought to the
Court’s attention, and/or these requests go far beyond
the issues in this action. Thomas’s first request forms
the basis for an entirely separate action not before this
Court. Thomas’s second request names Commissioner
Nicely, who is not named as a defendant in this action.
Moreover, it appears any new claims against
Commissioner Nicely’s actions are time-barred. Finally,
Thomas proffers no legal or factual reason the why a
hearing on his offer of proof is necessary or permissible.
The Court, therefore, DENIES these requests for
additional relief.

App. 75a
IV. CONCLUSION
For the reasons stated above, the Court DENIES
the State’s Motion to Reconsider the Court’s Ruling
that the Tennessee Billboard Act is Not Severable, and
GRANTS in part and DENIES in part Plaintiff’s
requests for remedies.
IT IS SO ORDERED, this 20th day of September,
2017.
/s/ Jon P. McCalla
JON P. McCALLA
UNITED STATES DISTRICT COURT JUDGE

App. 76a

APPENDIX E
IN THE UNITED STATES DISTRICT COURT
WESTERN DISTRICT OF TENNESSEE
WESTERN DIVISION
No. 13-cv-02987-JPM-cgc
[Filed September 20, 2017]
______________________________________
WILLIAM H. THOMAS, JR.,
)
)
Plaintiff,
)
)
v.
)
)
JOHN SCHROER, Commissioner of the )
Tennessee Department of Transportation )
in his official capacity,
)
)
Defendant.
)
______________________________________ )
SUPPLEMENTAL JUDGMENT ON FEES
JUDGMENT BY COURT. This action having come
before the Court on Plaintiff William H. Thomas, Jr.’s
Motion for Attorney Fees, filed April 18, 2017 (ECR
No. 361), and the Court having entered an Order
awarding Plaintiff attorneys’ fees, costs, and postjudgment interest (ECF No. 356). Accordingly, the
State of Tennessee and its agents are hereby ordered to

App. 77a
pay Plaintiff’s attorneys’ fees in the amount of
$83,322.50 and costs in the amount of $1,543.11, plus
post-judgment interest on both fees and costs.
IT IS SO ORDERED, this 20th day of September,
2017.
/s/ Jon P. McCalla
JON P. McCALLA
UNITED STATES DISTRICT COURT JUDGE

App. 78a

APPENDIX F
IN THE UNITED STATES DISTRICT COURT
WESTERN DISTRICT OF TENNESSEE
WESTERN DIVISION
No. 13-cv-02987-JPM-cgc
[Filed March 31, 2017]
______________________________________
WILLIAM H. THOMAS, JR.
)
)
Plaintiff,
)
)
v.
)
)
JOHN SCHROER, Commissioner of the )
Tennessee Department of Transportation )
in his official capacity,
)
)
Defendant.
)
______________________________________ )
ORDER & MEMORANDUM FINDING
BILLBOARD ACT AN UNCONSTITUTIONAL,
CONTENT-BASED REGULATION OF SPEECH
This action concerns alleged First Amendment
violations that occurred when agents of the State of
Tennessee (“the State”) sought to remove Plaintiff
William H. Thomas’s non-commercial billboard
pursuant to the Billboard Regulation and Control Act

App. 79a
of 1972 (“Billboard Act”), Tennessee Code Annotated
§§ 54-21-101, et seq. For the reasons stated below, the
Court finds the Billboard Act is an unconstitutional,
content-based regulation of speech. United States
Supreme Court authority compels this conclusion.
There exists an undeniable trend in Supreme Court
cases to guard against regulations that selectively ban
speech on the basis of its subject matter—e.g., contentbased regulations. Police Department of Chicago v.
Mosley, 408 U.S. 93 (1972). Distilling a pragmatic and
constitutionally-valid definition for content-based
regulations has evolved overtime. In the late 1980s, the
Supreme Court looked to the governing body’s intent to
determine whether a regulation constituted a contentbased regulation. Ward v. Rock Against Racism, 491
U.S. 781 (1989); City of Renton v. Playtime Theaters,
Inc., 475 U.S. 41 (1986). In Reed v. Town of Gilbert, 135
S. Ct. 2218 (2015), however, the Supreme Court
revisited its previous approach. Writing for the Court
in Reed, Justice Thomas explained, “[a] law that is
content based on its face is subject to strict scrutiny
regardless of the government’s benign motive, contentneutral justification, or lack of ‘animus’ toward the
ideas contained in the regulated speech.” Id. at 2222.1
1

Since Reed, which invalidated a municipal code that imposed
different restrictions on outdoor signs based on the signs’ message,
courts have found regulations to be content based if the regulation
targets or limits anyone seeking to engage in a specific type of
speech. See, e.g., Champion v. Commonwealth, No. 2015-SC000570-DG, 2017 WL 636420, at *3 (Ky. Feb. 16, 2017); Microsoft
Corp. v. United States Dep’t of Justice, No. C16-0538JLR, 2017
WL 530353, at *12 (W.D. Wash. Feb. 8, 2017); Brickman v.
Facebook, Inc., No. 16-CV-00751-TEH, 2017 WL 386238, at *5

App. 80a
That content-based inquiry has now been further
advanced by the Supreme Court’s decision in
Expressions Hair Design v. Schneiderman, No. 151391, 2017 WL 1155913, at *1 (U.S. Mar. 29, 2017), in
which the Court remanded a case concerning a
regulation that banned some forms of commercial
speech for further examination to determine whether
the regulation survives First Amendment scrutiny.
In the instant case, the regulation at issue – the
Tennessee Billboard Regulation and Control Act of
1972, Tennessee Code Annotated §§ 54-21-101, et seq.
– regulates both commercial and non-commercial
speech by banning some forms of both on the basis of
content and therefore does not survive First
Amendment scrutiny.

(N.D. Cal. Jan. 27, 2017); Sweet Sage Café, LLC v. Town of N.
Redington Beach, Florida, No. 8:15-CV-2576-T-30JSS, 2017 WL
385756, at *9 (M.D. Fla. Jan. 27, 2017); Indiana Civil Liberties
Union Found.. Inc. v. Indiana Sec’y of State,
No. 115CV01356SEBDML, 2017 WL 264538, at *4 (S.D. Ind. Jan.
19, 2017); Wagner v. City of Garfield Heights, No. 13-3474, 2017
WL 129034, at *6 (6th Cir. Jan. 13, 2017); Auspro Enterprises, LP
v. Texas Dep’t of Transportation, 506 S.W.3d 688, 700 (Tex. App.
2016) (finding Texas Highway Beautification Act regulations
content based and unconstitutional); Thayer v. City of Worcester,
144 F. Supp. 3d 218, 233 (D. Mass. 2015); Browne v. City of Grand
Junction, 136 F.Supp.3d 1276, Civ.Act.No. 14–cv–00809–CMA–
KLM, 2015 WL 5728755 (D.Col. Sep. 30, 2015); Norton v. City of
Springfield, 2015 WL 4714073 (7th Cir. 2015). Legislatures have
also sought to amend regulations to withstand Reed’s holding. See,
e.g., Geft Outdoor LLC v. Consol. City of Indianapolis & Cty. of
Marion, Indiana, 187 F. Supp. 3d 1002, 1016 (S.D. Ind. 2016).

App. 81a
I.

BACKGROUND

The Tennessee Department of Transportation
(“TDOT”) promulgates and enforces billboards and
outdoor advertising signs under Tennessee’s Billboard
Regulation and Control Act of 1972, (the “Billboard
Act”). (ECF No. 45 ¶ 13.) The State of Tennessee and
TDOT also regulate billboards and outdoor advertising
signs under to the Federal Highway Beautification Act
of 1965, as amended. (Id. ¶ 14.)
The Federal Highway Beautification Act and the
Billboard Act are designed to control the erection and
maintenance of billboards and signs along the National
Highway System. (See Exs. B, C, Bible Aff., ECF
No. 166-2; SUF ¶ 33; Resp. to SUF ¶ 33.)) Regulated
billboards and signs under the Billboard Act are
subject to location and/or permit and tag restrictions,
e.g., they may not be “within six hundred sixty feet
(660') of the nearest edge of the right-of-way and visible
from the main traveled way of the interstate or
primary highway systems . . . without first obtaining
from the commissioner a permit and tag.” T. C. A. § 5421-104(a). Some signs, however, may be exempted or
qualify as exceptions under the Billboard Act’s location
and/or permit and tag restrictions. See T.C.A. §§ 54-21103(1)-(3) and §§ 54-21-107(a)(1)-(2). For example, a
billboard or sign is exempted from the six-hundredsixty feet requirement if it qualifies as one of the
following types of signs:
(2) Signs, displays and devices advertising the
sale or lease of property on which they are
located;

App. 82a
(3) Signs, displays and devices advertising
activities conducted on the property on which
they are located;
....
T.C.A. §§ 54-21-103(1)-(3). A billboard or sign is
exempted from complying with the permit and tag
restrictions if it falls into one of the following
categories:
(1) Those [signs] advertising activities conducted
on the property on which they are located;
(2) Those [signs] advertising the sale or lease of
property on which they are located; and
....
T.C.A. §§ 54-21-107(a)(1)-(2).
In practice, State agents label signs the Billboard
Act regulates as “off-premise” signs and label
unregulated signs as “on-premise” signs. (See ECF
No. 64 at PageID 917.) The State’s agents use the
following Rule to make their determinations:
A sign will be considered to be an on-premise
sign if it meets the following requirements.
(a) Premise – The sign must be located on the
same premises as the activity or property
advertised.
(b) Purpose – The sign must have as its
purpose (1) the identification of the activity,
or its products or services, or (2) the sale or
lease of the property on which the sign is

App. 83a
located, rather than the purpose of general
advertising.
(ECF No. 46-6 at PageIDs 718-19 (quoting Rule 168002-03-.06(2); see also ECF No. 121 at 15-16.) Rule 168002-03-.06 further expands on the ‘Purpose Test’
[t]he following criteria shall be used for
determining whether a sign has as its purpose
(1) the identification of the activity located on
the premises or tis products or services, or
(2) the sale or lease of the property on which the
sign is located rather than the business of
outdoor advertising.
(a) General
1. Any sign which consists solely of the
name of the establishment is an onpremise sign.
2. A sign which identifies the
establishment’s principle or accessory
product or services offered on the
premises is an on-premise sign.
3. An example of an accessory product
would be a brand of tires offered for
sale at a service station.
(b) Business of Outdoor Advertising
1. When an outdoor advertising device
(1) brings rental income to the
property owner, or (2) consists
principally of brand name or trade
name advertising, or (3) the product or

App. 84a
service advertised is only incidental to
the principle activity, it shall be
considered the business of outdoor
advertising and not an on-premise
sign. An example would be a typical
billboard located on the top of a
service station building that
advertised a brand of cigarettes or
chewing gum which is incidentally
sold in a vending machine on the
property.
2. An outdoor advertising device which
advertises activities conducted on the
premises, but which also advertises, in
a prominent manner, activities not
conducted on the premises, is not an
on-premise sign. An example would be
a sign advertising a motel or
restaurant not located on the premises
with a notation or attachment stating
“Skeet Range Here,” or “Dog Kennels
Here.” The on-premise activity would
only be the skeet range or dog kennels.
(c) Sale or Lease Signs
A sale or lease sign which also
advertises any product or service not
located upon and related to the
business of selling or leasing the land
on which the sign is located is not an
on-premise sign. An example of this
would be a typical billboard which
states “THIS PROPERTY FOR SALE-

App. 85a
SMITHS MOTEL; 500 ROOMS, AIR
CONDITIONED, TURN RIGHT 3
BLOCKS AT MA IN STREET.”
Rule of Tennessee Department of Transportation
Maintenance Division, Control of Outdoor Advertising,
1680-02-03.06(4) (2008). Although the Billboard Act
and the State’s Rule reference “advertising” in the
commercial context, the State contends the Billboard
Act’s regulations, exceptions, and exemptions apply
with equal force to commercial and non-commercial
messages. (See ECF No. 64 at PageID 917.)
Plaintiff Thomas’s business involves posting outdoor
advertising signs. (ECF Nos. 1 ¶ 11; 45 ¶ 11.) Thomas
erects these signs on the various tracts of real property
he owns throughout Tennessee. (ECF No. 45 ¶ 10.)
Thomas’s sign at issue in this case is located off
Interstate-40 West in Memphis, Tennessee (hereinafter
the “Crossroads Ford sign”). (Id. ¶ 21.) Thomas has
posted various messages on this sign over the years.
(Id.) For example, in 2012, he displayed an image of an
American flag with Olympic rings, in support of that
year’s U.S. Olympic team. (ECF No. 38 ¶ 23.) Later
that year, in the “beginning of fall,” he “displayed
content referencing the upcoming holiday season with
a picture of an American Flag.” (ECF No. 45 ¶ 24.)
Thomas erected his Crossroads Ford sign without a
permit. (ECF No. 46-6 at PageID 721 (citing Tennessee
v. Thomas, 336 S.W.3d 588, 593 (Tenn. Ct. App. 2010).)
Since approximately 2006, the State has sought to
remove Thomas’s signs that did not comply with the
Billboard Act—including the Crossroads Ford
sign—through an ongoing enforcement action in

App. 86a
Chancery Court in Shelby County, Tennessee. (ECF
Nos. 1 ¶¶ 62, 77; 45 ¶ 27; see ECF Nos. 96–1 at PageID
1399–1404; 46-2 – 46-5; see also Tennessee v. Thomas,
336 S.W.3d 588, 593 (Tenn. Ct. App. 2010).) In 2006,
TDOT denied Thomas’s permit and building
application for his Crossroads Ford sign because it was
less than 1,000 feet from a competitor’s billboard. (ECF
No. 166-1 at PageID 2595 (citing Thomas v. TDOT, 336
S.W.3d 588, 592 (Tenn. Ct. App. 2010).) Nonetheless,
Thomas began construction on his Crossroads Ford
sign in 2007, and TDOT then brought an enforcement
action in March 2007. (Id.) In April and October of
2011, the State removed two of Thomas’s outdoor
advertising signs (the “Kate Bond” signs). (ECF No. 45
¶¶ 33, 37; ECF No. 79 ¶¶ 33, 37.) Throughout 2012 and
2013, Thomas defended his signs in administrative
proceedings before the Commissioner of TDOT. (See
ECF Nos. 263-18—263-20.)
On March 25, 2013, Thomas filed an initial
Complaint and Request for Declaratory Judgment.
(Thomas v. Tennessee Department of Transportation,
No. 2:13-cv-2185-JPM-cgc (W.D. Tenn. 2013), ECF
No. 1.) Thomas sought relief under 28 U.S.C. § 1983 for
violations of his First and Fourteenth Amendment
rights under the United States Constitution. (Id. ¶ 3.)
The Complaint also alleged Thomas’s Crossroads Ford
sign was entitled to First Amendment protection as a
display of non-commercial speech. (Id. ¶ 39.) On
July 24, 2013, TDOT filed a Motion to Dismiss the
Complaint, alleging TDOT is immune from suit and
that Thomas’s claims fail to state a claim. (ECF
No. 18.) Thomas sought to avoid TDOT’s Rule 12(b)(1)
and 12(b)(6) defenses by requesting leave to file an

App. 87a
Amended Complaint adding individual defendants.
(See ECF No. 26.) On October 28, 2013, the Court
dismissed Thomas’s claims, based on TDOT’s Eleventh
Amendment immunity. (ECF No. 31 at PageID 180.)
Thomas appealed (ECF No. 33), and on August 6, 2014,
the Sixth Circuit Court of Appeals affirmed, holding
that had Thomas named a state official in his or her
official capacity, his claims would have survived
dismissal (ECF No. 35 at PageID 204).
On December 17, 2013, while this first action was
on appeal, Thomas filed his Complaint in this action,
which named multiple Tennessee state officials in their
official capacities. (Thomas v. Schorer et al, No. 132987 (W.D. Tenn.), ECF No. 1.) The Complaint alleged
Thomas’s Crossroads Ford sign was entitled to First
Amendment protection as a display of non-commercial
speech. (Id. ¶ 52.) Thomas filed an Amended Complaint
on October 27, 2014. (See ECF Nos. 22, 34, 38, 45.)
Thomas’s Amended Complaint also argued that “in
March of 2014, TDOT, through Commissioner Schroer,
filed an action against Mr. Thomas in the Twentieth
Judicial District Chancery Court for the State of
Tennessee in retaliation for Mr. Thomas exercising his
rights to petition this Court for redress of his
grievances against Defendants.” (ECF No. 45 ¶ 65.)
Thomas’ initial fillings also included additional
claims against the State: First Amendment,
Retaliation, Equal Protection and Declaratory
Judgment. (ECF Nos. 1, 45.) Following the Court’s
Order on the State’s motion to dismiss, (ECF No. 170),
and summary judgment (ECF No. 233), Thomas’s only
remaining claim is whether the removal of his

App. 88a
billboards under the Billboard Act violated his First
Amendment rights. This Order concerns only this
issue.
In October 2014, the State removed another of
Thomas’s outdoor signs (the “Perkins Road sign”), even
though, according to Thomas, “[the] billboard was
displaying exclusively on-premise, noncommercial
content and therefore exempt from the permitting
requirements of T.C.A. § 54–21–107(a)(1).” (ECF No. 45
¶ 40; ECF No. 79 ¶ 40.)
On May 26, 2015, TDOT sent Thomas a letter
stating that Thomas must remove the Crossroads Ford
sign by June 26, 2015. (ECF No. 96–1 at PageID 1399.)
Thomas also received a proposed order of judgment
“declaring an unlawful billboard to be [a] public
nuisance and granting permanent injunction for
removal of the unlawful billboard,” to be subsequently
submitted in Chancery Court in Shelby County,
Tennessee. (Id. at PageID 1401–03.)
On June 10, 2015, Plaintiff filed an Emergency
Motion for Temporary Restraining Order (“TRO”) to
prevent Defendants from removing his Crossroads Ford
sign. (ECF No. 96.) He also sought to enjoin Defendants
from executing any judgments “resulting [from] or
associated with the Crossroads Ford billboard sign
until such time as a hearing can be held on the issues
. . . .” (Id. at 1.) On June 11, 2015, Defendant opposed
the TRO. (ECF No. 99.) On June 18, 2015, the Court
held a Motion Hearing on TRO motion. (ECF No. 104.)
On June 24, 2015, the Court granted Thomas’s TRO
motion and ordered the State to “refrain from seeking

App. 89a
to execute on any judgments, orders, or other monetary
judgments resulting from or associated with the
Crossroads Ford billboard sign until such time as the
Court deems it appropriate to lift the TRO.” (ECF
No. 110 at PageID 1464.) The Court found “a strong
likelihood that multiple sections of the Billboard Act
are facially content-based and subject to strict scrutiny
under” Reed v. Town of Gilbert, 135 S. Ct. 2218, 2227
(2015). (Id. at PageID 1455.) The Court also found “a
strong likelihood that at least §§ 54-21-103(1)-(3) and
§§ 54-21-107(a)(1)-(2) of the Billboard Act are
unconstitutional.” (Id. at PageID 1456.) On
September 8, 2015, the Court granted a preliminary
injunction. (ECF No. 163.)
The Court entered an Amended Scheduling Order
on May 31, 2016 (ECF Nos. 170, 233) to reflect the
narrowing of issues, and set a jury trial for
September 12, 2016. (ECF No. 237.) The parties filed
timely pretrial motions. (See ECF Nos. 280-86.)
On September 6, 2016, the Court entered an Order
Regarding Defendants’ Motion in Limine as to Money
Damages (ECF No. 280). (ECF No. 301.) The Court
stated that the jury would decide two issues:
“(1) whether the State has a compelling interest that is
furthered by the Billboard Regulation and Control Act
of 1972 (“Billboard Act”), as set forth at Tennessee
Code Annotated §§ 54-21-101 to -123 (2008); and
(2) whether the Billboard Act is narrowly tailored to
the State’s interest.” (Id. at PageID 5964.) The jury
would not decide the ultimate constitutionality
question. (Id.) The jury trial was then rescheduled to
September 19, 2016. (Min. Entry, ECF No. 305.)

App. 90a
On September 9, 2016, Thomas filed a Written
Objection to Allowing the Jury to Decide the Issues of
“Compelling State Interest” and “Narrow Tailoring.”
(ECF No. 307.) On September 16, 2016, the Court
entered an Order Concerning Plaintiff’s Objection to
the Jury Determining “Compelling Interest” and
“Narrow Tailoring.” (ECF No. 314.) The Court clarified
the jury would serve as an advisory jury on the issues
before them. (Id. at PageIDs 6140, 6146.)
A four-day, advisory-jury trial began on
September 19, 2016. (Min. Entries, ECF Nos. 320-21,
322, 328.) Seven witnesses testified on behalf of the
State: Paul Degges, Chief Engineer for TDOT; John
Schroer, Commissioner of TDOT; Robert Shelby, retiree
from the Highway Beautification Department at
TDOT; John Carr, Assistant Commissioner of
Administration at TDOT; Colonel Tracy Trott, highway
patrol law enforcement officer; Jason Moody, Assistant
Regional Traffic Engineer at TDOT; and Shawn Bible,
Beautification Coordinator at TDOT. (See ECF
No. 331.) On September 22, 2016, a jury found the
State had a compelling interest, and that the Billboard
Act was narrowly tailored to that interest. (ECF
No. 329.) On the same day, Thomas filed a Rule 52
Motion for Verdict as a Matter of Law. (ECF No. 325.)
The State responded in opposition on October 7, 2016.
(ECF No. 336.) Thomas replied on October 21, 2016.
(ECF No. 340.)
On October 26, 2016, the Court entered an Order
Concerning Least Restrictive Means, ordering the
parties to file supplemental briefing on the issue of

App. 91a
least restrictive means. (ECF No. 342.) Both parties
timely briefed the issue. (ECF Nos. 343-44.)
On November 23, 2016, Amici Curiae National
League of Cities, International Municipal Lawyers
Association, Tennessee Municipal Attorneys
Association, International City/County Management
Association, Scenic America, Inc., Scenic Tennessee,
Inc., Tennessee Conservation Voters, League of Women
Voters of Knoxville/Knox County, Trees Knoxville,
Keep Knoxville Beautiful, City of Knoxville, Tennessee
Chapter of the American Planning Association, and
Tennessee Federation of Garden Clubs, Inc.
(collectively, “Movants”)’s filed a Motion for Leave to
File the Brief of Amici Curiae. (ECF No. 346.) On
November 30, 2016, Thomas opposed. (ECF No. 347.)
Because the amicus brief sought to address standing
and the differentiation between on- and off-premises
signs, both of which the parties did not adequately
brief, the Court granted the Motion for Leave to File
the Brief of Amici Curiae (ECF No. 346) on
December 7, 2016. (ECF No. 348.) The Court granted in
part Thomas’s request to respond to the standing issue,
which Thomas timely briefed. (ECF Nos. 352, 354.)2

2

The Amicus Brief challenges Thomas’s standing by claiming his
First Amendment claim is time-barred. Even if Thomas’s First
Amendment claim is time-barred, it would be “grossly unfair to
allow [Thomas] to go to the expense of trying a case only to be met
by a new defense after trial” that has not been raised by the State
and lacks evidentiary development. Bradford–White Corp. v. Ernst
& Whinney, 872 F.2d 1153 (3d Cir. 1989) (holding that defendant
waived statute of limitations defense when it raised issue in the
answer but failed to attempt to establish this affirmative defense
before or at trial), cert. denied, 493 U.S. 993 (1989). Thus, the

App. 92a
II.

LEGAL STANDARD
A. Federal Rule of Civil Procedure 52
Federal Rule of Civil Procedure 52 provides,
[i]n an action tried . . . with an advisory jury, the
court must find the facts specially and state its
conclusions of law separately. The findings and
conclusions may be stated on the record after the
close of the evidence or may appear in an
opinion or a memorandum of decision filed by
the court.

Fed.R.Civ.P. 52(a)(1). In the instant case, the Court
makes its findings of fact and conclusions of law
following the advisory jury’s verdict below.
B. F i r s t
Amendment
Protection:
Commercial Versus Non-Commercial
Speech
The First Amendment mandates that “Congress
shall make no law . . . abridging the freedom of speech.”
U.S. Const. amend. I. This language generally prohibits
any laws that regulate or restrict expression based on
content: “[A]bove all else, the First Amendment means
that the government has no power to restrict
expression because of its message, its ideas, its subject
matter, or its content.” Police Dep’t v. Mosley, 408 U.S.
92, 95 (1972).

Court declines to grant sua sponte summary judgment in favor of
the State. See Grand Rapids Plastics, Inc. v. Lakian, 188 F.3d 401,
407 (6th Cir. 1999).

App. 93a
Not all speech is equally protected. “[T]he degree of
protection afforded by the First Amendment depends
on whether the activity sought to be regulated
constitutes commercial or non-commercial speech.”
Bolger v. Youngs Drug Prod. Corp., 463 U.S. 60, 65
(1983). The government may impose stricter
regulations on commercial speech than on noncommercial speech. See Metromedia, Inc. v. City of San
Diego, 453 U.S. 490, 513 (1981); Central Hudson Gas &
Electric Corp. v. Public Service Comm’n, 447 U.S. 557
(1980). A statement is commercial speech when (1) it is
an advertisement; (2) it refers to a specific product or
service; and (3) the speaker has an economic
motivation for making it. Bolger, 463 U.S. at 66–67
(“The combination of all these characteristics . . .
provides strong support . . . that the [speech at issue is]
properly characterized as commercial speech.”). Noncommercial speech, on the other hand, involves
ideological, political, religious, artistic, or scientific
speech. National Endowment for the Arts v. Finley, 524
U.S. 569, 601 (1998).
C. Content-Based Restrictions
In 2015, the Supreme Court held that “[c]ontentbased laws—those that target speech based on its
communicative content—are presumptively
unconstitutional and may be justified only if the
government proves that they are narrowly tailored to
serve compelling state interests.” Reed v. Town of
Gilbert, Ariz., 135 S. Ct. 2218, 2226 (2015).
“Government regulation of speech is content based if a
law applies to particular speech because of the topic
discussed or the idea or message expressed.” Reed, 135

App. 94a
S. Ct. at 2227. Content–based regulations are those
that “cannot be ‘justified without reference to the
content of the regulated speech’” and those that were
“adopted by the government ‘because of disagreement
with the message [the speech] conveys.’” Id. (alteration
in original) (quoting Ward v. Rock Against Racism, 491
U.S. 781, 791 (1989)). “[A] speech regulation targeted
at specific subject matter is content based even if it
does not discriminate among viewpoints within that
subject matter.” Id. at 2230. Signs that could be
regulated in a content-neutral manner include “size,
building materials, lighting, moving parts, and
portability.” Id. at 2232.
The ordinance invalidated in Reed distinguished
“temporary directional signs, political signs, and
ideological signs.” Id. Courts have thus narrowed
Reed’s applicability to non-commercial rather than
commercial speech regulations.3 In short, a court
strictly scrutinizes content-based restrictions of noncommercial speech, but “regulations on commercial
speech [whether] content-based or content-neutral,
3

See, e.g., CTIA–The Wireless Ass’n v.City of Berkeley, 139
F.Supp.3d 1048, 1061 (N.D. Cal. 2015) (“The Supreme Court has
clearly made a distinction between commercial speech and
noncommercial speech, . . . and nothing in its recent opinions,
including Reed, even comes close to suggesting that that wellestablished distinction is no longer valid.”); Lone Star Sec. &
Video, Inc. v. City of Los Angeles, 827 F.3d 1192, 1198 n. 3 (9th
Cir.2016); RCP Publ’ns Inc. v. City of Chicago, No. 15 C 11398,
2016 WL 4593830, at *4 (N.D.Ill. Sept. 2, 2016). The Second
Circuit has done the same in a summary order. Poughkeepsie
Supermarket Corp. v. Dutchess Cty., 648 Fed.Appx. 156, 157 (2d
Cir. 2016); Timilsina v. West Valley City, No. 2:14-cv-00046-DNEJF, 2015 WL 4635453, at *7 (D. Utah Aug. 3, 2015).

App. 95a
[would be subject to] intermediate scrutiny. . . .” PHN
Motors, LLC v. Medina Twp., 498 F. App’x 540, 544
(6th Cir. 2012) (unpublished opinion); see also Lone
Star Security & Video, Inc. v. City of L.A., 827 F.3d
1192, 1198 n.3 (9th Cir. 2016). Some regulations,
however, implicate both commercial and noncommercial speech.
When a content-based regulation affects both
commercial and non-commercial speech, the speech’s
nature determines the appropriate level of scrutiny.
PHN Motors, 498 F. App’x at 543–44 (applying
intermediate scrutiny because speech at issue was
commercial); cf. Southlake Prop. Associates, Ltd. v.
City of Morrow, Ga., 112 F.3d 1114, 1116–17 (11th Cir.
1997) (“To the extent that the ordinance regulates
noncommercial speech, it must withstand a heightened
level of scrutiny.”).
Since Reed, some local governments have begun
redrafting content-based, sign-related ordinances to
apply solely to commercial speech. Courts find these
amended ordinances comply with Reed. See, e.g., Geft
Outdoor LLC v. Consolidated City of Indianapolis,
No. 1:15-cv-01568-SEB-MJD, 2016 WL 2941329, *1-2
(S.D. Ind. May 20, 2016).
For the reasons stated below, the Court finds it
must apply strict scrutiny to the Billboard Acts because
it is a content-based regulation that implicates
Thomas’s non-commercial speech. The Court then finds
that the Billboard Act does not survive strict scrutiny;
and thus, the Billboard Act is unconstitutional.

App. 96a
III.

ANALYSIS
A. The Billboard Act Is Subject to Strict
Scrutiny Because It Is a Content-Based
Regulation that Implicates Thomas’s
Non-Commercial Speech

In this action, the Billboard Act is subject to strict
scrutiny because it is a content-based regulation that
implicates the non-commercial speech Thomas
displayed on his Crossroad Fords sign.
The State contends that the Billboard Act is content
neutral. (ECF No. 336 at PageID 6718 n. 1.) While on
its face the Billboard Act articulates potentially
content-neutral restrictions—on-premises versus offpremises—the restrictions under the Billboard Act
hinge on content.
In his concurring opinion in Reed, Justice Alito
described the off-premises/on-premises distinction as
content neutral. Reed v. Town of Gilbert, 135 S. Ct.
2218, 2233 (2015) (Alito, J., concurring). This Court
agrees it is possible for a restriction that distinguishes
between off- and on-premises signs to be content
neutral. For example, a regulation that defines an offpremise sign as any sign within 500 feet of a building
is content neutral. But if the off-premises/on-premises
distinction hinges on the content of the message, it is
not a content-neutral restriction. A contrary finding
would read Justice Alito’s concurrence as disagreeing
with the majority in Reed. The Court declines such a
reading. Justice Alito’s exemplary list of “some rules
that would not be content based” ought to be read in
harmony with the majority’s holding. Id. Read in

App. 97a
harmony with the majority, Justice Alito’s concurrence
enumerates an “on-premises/off-premises” distinction
that is not defined by the sign’s content, but by the
sign’s physical location or other content-neutral factor.
The State previously argued the Billboard Act is
content neutral because “it is entirely based on location
or placement of the signs. An on-premises sign is one
that is on the premises of an establishment, whereas
an off-premises sign does not have a premises as such.
It is logical to distinguish between the two by reference
to place.” (ECF No. 118 at 6.) But as the Court
determined in its June 24, 2015 Order, “[t]he only way
to determine whether a sign is an on-premise sign, is to
consider the content of the sign and determine whether
that content is sufficiently related to the ‘activities
conducted on the property on which they are located.’”
(ECF No. 110 at 8 (quoting § 107(a)(1)).) Shawn Bible,
Beautification Coordinator at TDOT, confirmed the
State’s use of “a premises test and a purpose test. Is it
on the premises it is supposed to be on? And is its
purpose advertising what’s happening there or that
business is informing.” (ECF No. 334 at PageIDs
6634:24-25 – 6635:1-2.) Bible also conceded that a sign
“has to have some words on it to connect it to the
premises. . . . So [the State is] looking at the content of
[the] sign to make [a] determination whether it’s on
premises or off premises. . . .” (Id. at PageID 6663:1221.)
The statutes’ language, the State’s rules, and the
State’s actions as to Thomas’s non-commercial
messages on his Crossroads Ford sign further compel
a finding that the Billboard Act is content based. The

App. 98a
Billboard Act imposes location, permit, and tag
requirements on signs, unless they qualify as an
exception or exemption. The language of the Billboard
Act requires one to assess the sign’s content to
determine if it is exempt. Signs that advertise activities
conducted or the sale/lease of the property on which
they are located are exempted from the location,
permit, and tag requirements. T.C.A. §§ 54-21-103(1)(3), 54-21-107(a)(1)-(2). In practice, the State also uses
a two-step inquiry knowns as the “premise and purpose
test,” which requires that the sign’s content identify an
activity/sale/lease on the property where the sign is
located before it qualifies for exemption. (ECF No. 46-6
at PageIDs 718-19 (quoting Rule 1680-02-03-.06(2)). In
other words, first, the sign “has to be on that property
where the activity is taking place . . . .” (ECF No. 121 at
PageID 1523 (testimony of Shawn Bible, Beautification
Coordinator, TDOT).) Second, the sign “has to be
advertising or speaking up for the things going on there
at that premise.” (Id. at PageIDs 1523-24.) The State
contends that Thomas’s previous displays on his
Crossroads Ford sign, like “an American flag with the
Olympic rings” (ECF No. 45 at PageID 563), did not
“fall within the well-established guidelines in the Rule”
(ECF No. 46-6 at PageID 719; see also ECF No. 46-6 at
PageID 721). The State, therefore, seeks to remove
Thomas’s Crossroads Ford sign because it is displayed
without a permit. (ECF Nos. 17 ¶ 27; 79 ¶ 27.) In short,
the State argues that Thomas’s sign must be regulated
because its non-commercial message does not “speak[]
up for the things going on there at that premise.” (Test.
Shawn Bible, Beautification Coordinator at TDOT,
ECF No. 121 at PageIDs 1523:10-1524:11.) Thus, the
statute’s language, the State’s rules, and the State’s

App. 99a
reasoning support a finding that the Billboard Act is
content based.
After Reed, if a sign’s application hinges on the
content of the message, it is content based. For
example, in Cent. Radio Co. Inc. v. City of Norfolk, Va.,
the Fourth Circuit Court of Appeals held a city
regulation that
exempted governmental or religious flags and
emblems, but applied to private and secular
flags and emblems . . . [and] exempted ‘works of
art’ that ‘in no way identif[ied] or specifically
relate[d] to a product or service,’ but [ ] applied
to art that referenced a product or service. . .
was content-based because it applied or did not
apply as a result of content, that is, ‘the topic
discussed or the idea or message expressed.’
811 F.3d 625, 633 (4th Cir. 2016) (quoting Reed, 135
S.Ct. at 2227). Likewise, in the instant case, the
applicability of the on-premises sign exemption
depends on the sign’s content, i.e. the content must
concern activity on the site where the sign is located.
(See ECF No. 46-6 at PageIDs 718-19 (quoting Rule
1680-02-03-.06(2)). Even “though [the on-premises/offpremises distinction appears] facially content neutral,
[it ultimately] cannot be ‘justified without reference to
the content of the regulated speech,’” and thus is a
content-based regulation. Reed, 135 S. Ct. at 2222.
In the instant case, the Billboard Act is subject to
strict scrutiny because, while it regulates both
commercial and non-commercial speech, the language
at issue is the non-commercial message(s) in Thomas’s

App. 100a
Crossroads Ford sign. The State concedes that the
Billboard Act’s on-premises/off-premises provisions
apply to both commercial and non-commercial speech
and that “[a] message can [ ] be commercial or noncommercial as long as there is some connection.” (ECF
Nos. 64 at PageID 917, 344 at 10.) There is no question
that Thomas’s Crossford Sign displaying an American
flag and Olympic rings is non-commercial speech. (See
ECF No. 45 at PageID 563.) Because the Billboard Act
is a content-based regulation that applies to both
commercial and non-commercial speech, and because
the nature of the speech at issue is non-commercial, the
Billboard Act must survive strict scrutiny to be found
constitutional. See PHN Motors, 498 F. App’x at
543–44.
B. The Billboard Act Does Not Survive
Strict Scrutiny
Strict scrutiny “requires the Government to prove
that the restriction furthers a compelling interest and
is narrowly tailored to achieve that interest.” Reed, 135
S.Ct. at 2231. Even if the government’s interests are
compelling, “it is the rare case in which a speech
restriction withstands strict scrutiny.” Id. at 2236
(Kagan, J., concurring in the judgment) (citing
Williams–Yulee v. Fla. Bar, ––– U.S. ––––, 135 S.Ct.
1656, 1666 (2015)). If a less restrictive alternative for
achieving that interest exists, the government “must
use that alternative.” United States v. Playboy Entm’t
Grp., Inc., 529 U.S. 803, 813 (2000). “When the
Government restricts speech, the Government bears
the burden of proving the constitutionality of its
actions.” Id. at 816.

App. 101a
For the reasons stated below, the Billboard Act fails
under strict scrutiny. The Court first finds that the
State’s interests are not compelling, but even if they
were, the Court finds the Billboard Act is not narrowly
tailored to the those interests.
1. The State’s
Compelling

Interest

Are

Not

The State sets out “six compelling State interests:
Driver Safety, Promote Recreational Value of Public
Travel, Promote Tourism, Promote Economic
Development, Protect Investments in Public Highways
and Preserve Scenic Beauty.” (ECF No. 336 at PageID
6720.) First, the State contends that “if there were no
Billboard Act, and billboards were allowed to
proliferate, that would lead to further distraction and
could cause more accidents.” (Id. at PageID 6721.)
Second, the State argues that “[t]he Billboard Act
engenders [ ] recreational travel by helping keep the
roads more driver friendly and scenic.” (Id. at PageID
6725.) The State does not offer proof, however, that the
Billboard Act actually influences recreational travel.
Third, the State asserts “that billboards and other
signs detract from the natural beauty that visitors say
that they travel to and within Tennessee to see.” (Id. at
PageIDs 6726-27.) Yet the State admits it has no
statistical evidence that the Billboard Act influences
tourism. (Id.)
Fourth, the State argues that “how the roadways in
Tennessee look plays an important part in attracting
new businesses to the State.” (Id. at PageID 6727
(emphasis added).) The State’s bases this argument

App. 102a
entirely on testimony from “Commissioner Schroer, a
businessman and entrepreneur himself, who is familiar
with the business industry and the needs of businesses
in Tennessee” and believes “attractive roads [are]
critical to economic development.” (Id. at PageID 6737.)
Commissioner Schroer’s testimony offers little in terms
of statistical or differential analysis documenting an
actual link between “attractive roads” verses, for
example, “good roads” and economic development.4
Rather, Commissioner Schroer’s testimony correlates
the maintenance and building of roads, sans reference
to aesthetics, with transportation to and from
Tennessee businesses. 5 Moreover, because

4

When asked if he conducted an independent study as to how
roadways impact business recruitment to Tennessee,
Commissioner Schroer states,
You know, the best way I can answer that is, having talked
to executives of companies that come to the State of
Tennessee, they’re very clear that what we did helped
them make a decision to come to Tennessee. So, you know,
that’s as independent as I think I need is from the
company themselves, telling me how important our capital
investment was when they’re making a decision to come to
Tennessee.
(Trial Tr., ECF No. 333 at PageID 6392:11-19.)

5

Commissioner Schroer testified,
I can say as an example, in 2015 about 167 businesses
relocated to the State of Tennessee with about a
$5.5 billion investment. . . . [T]ransportation has a huge
part of that and that almost all of those deals, those
businesses that come in the State of Tennessee have some
need of transportation. And often times it’s just the
interstate system itself, they want to get their goods and

App. 103a
Commissioner Schroer is a fact witness and not an
economic expert (ECF No. 270 ¶ 5), and because his
opinion testimony on how roadway aesthetics influence
economics would require specialized knowledge, his
testimony is impermissible lay opinion. Fed. R.
Evid. 701(c) (“If a witness is not testifying as an expert,
testimony in the form of an opinion is limited to one
that is . . . not based on scientific, technical, or other
specialized knowledge within the scope of Rule 702.”).
The Court, therefore, finds Commissioner Schroer’s
testimony unpersuasive and unsupportive of the State’s
position that the Billboard Act ensures more attractive
roads and those attractive roads are critical to
economic development.
Fifth, the State discusses the public investment in
the building and maintenance of the roads. (ECF
No. 336 at PageIDs 6727-28.) Yet the State does not
establish that the Billboard Act directly impacts this
public investment, and merely repeats that “[o]f course
the major concern is safety of the motoring public. . . .
In fact, safety is the key asset in a roadway. . . . The
State takes care to have signs that are appropriately

products to wherever they are going. But many times they
also need a road to their business to their factory or
whatever it is, and we provide those as part of our
process. . . . Volkswagen as an example has a huge plant in
Chattanooga, and we spent over $30 million to open an
interchange. . . . Academy Sports located a $1.7 million or
million square feet facility in Cookeville, Tennessee that
we are providing both an interchange and an access road
from the interchange into their facility.
(Trial Tr., ECF No. 332 at PageIDs 6344:2-25 – 6345:1-4.)

App. 104a
spaced and not clutters [sic] because sign clutter can
lead to distracted driving.” (Id. at PageID 6728.)
Sixth, the State argues that “[p]rotecting and
preserving the natural scenic beauty is [ ] a compelling
interest for the State of Tennessee.” (Id. at PageID
6729.)6
Despite presenting six seemingly separate
arguments, the State’s position can be distilled into two
concepts. First, the State’s tourism, recreation,
economic development, and scenic beauty arguments
all hinge on roadway aesthetics. Second, the State’s
driver safety and public investment arguments all
hinge on traffic safety. In short, the State contends that
the Billboard Act prevents the proliferation of
billboards, which, in turn, improves (1) aesthetics and
(2) traffic safety. Neither of these arguments, however,
constitutes a compelling interest.
Although the Sixth Circuit has held that aesthetics
and highway safety are substantial or significant

6

Although not listed as a compelling interest, the State also
mentions federal funding, and argues that although “the need to
continue Federal funding may not be a ‘compelling’ State interest,
it is at the least a legitimate interest that, along with the
compelling interests that the State proved, shows the [sic]
Tennessee has a compelling State interest (or interests) in the
Billboard Act.” (Id. at PageID 6731.) This Court previously found
that federal funding is irrelevant to the strict scrutiny analysis.
(ECF No. 315 at PageID 6154.) Other courts agree with this
finding: “[T]he desire to secure a [State’s] funding is, of course, not
a compelling interest that would justify the suppression of . . .
First Amendment speech. . . .” Villejo v. City of San Antonio, 485
F. Supp. 2d 777, 783 (W.D. Tex. 2007).

App. 105a
governmental interests, Wheeler v. Comm’r of
Highways, Com. of Ky., 822 F.2d 586, 589 (6th Cir.
1987); Hucul Advert., LLC v. Charter Twp. of Gaines,
748 F.3d 273, 278 (6th Cir. 2014); Prime Media, Inc. v.
City of Brentwood, Tenn., 398 F.3d 814, 821 (6th Cir.
2005), neither the Sixth Circuit nor the Supreme Court
has held that these interests are compelling under
strict scrutiny. Wagner v. City of Garfield Heights,
No. 13-3474, 2017 WL 129034, at *6 (6th Cir. Jan. 13,
2017) (“We will follow the Court’s example in Reed and
assume without deciding that these interests are
sufficiently compelling.”); see Reed v. Town of Gilbert,
Ariz., 135 S. Ct. 2218, 2223 (2015). Some courts have
found neither aesthetics nor traffic safety constitute
compelling interests. Neighborhood Enters., Inc. v. City
of St. Louis, 644 F.3d 728, 738 (8th Cir. 2011); cf.
Dimmitt v. City of Clearwater, 985 F.2d 1565, 1569–70
(11th Cir. 1993) (finding that the evidence fell short of
establishing a compelling state interest in visual
aesthetics and traffic safety that would justify contentbased regulation of noncommercial speech);
McCormack v. Twp. of Clinton, 872 F.Supp. 1320, 1325
n. 2 (D.N.J. 1994) (noting that “while courts certainly
have recognized states’ and municipalities’ interests in
aesthetics and safety, no court has ever held that these
interests form a compelling justification for a contentbased restriction” of non-commercial speech). “[T]he
promotion of tourism and business has [also] never
been found to be a compelling government interest for
the purposes of the First Amendment.” McLaughlin v.
City of Lowell, 140 F. Supp. 3d 177, 189 (D. Mass.
2015) (citing Pottinger v. City of Miami, 810 F.Supp.
1551, 1581 (S.D. Fla. 1992)).

App. 106a
In previous rulings, the Supreme Court has made it
clear that
content-based restrictions on speech have been
permitted, as a general matter, only when
confined to the few historic and traditional
categories [of expression] long familiar to the
bar, including advocacy intended, and likely, to
incite imminent lawless action . . . obscenity . . .
defamation . . . speech integral to criminal
conduct . . . so-called ‘fighting words,’ . . . child
pornography . . . fraud . . . true threats . . . and
speech presenting some grave and imminent
threat the government has the power to prevent.
United States v. Alvarez, 132 S. Ct. 2537, 2544, 183 L.
Ed. 2d 574 (2012) (internal quotation marks omitted).
The compelling interests underlying these categories
are similar: the government has a compelling interest
in regulating content that is false, criminal and/or
provokes crime, or lawless.
The Supreme Court also mandates that the
government’s compelling interest must be related to
the speech-based distinctions the regulation makes.
Simon & Schuster, Inc. v. Members of N.Y. State Crime
Victims Bd., 502 U.S. 105, 120 (1991) (concluding that
the disparate treatment of storytelling criminal speech
was completely unrelated to the State’s compelling
interest in ensuring that crime victims were
compensated from the fruits of the crimes committed
against them and that any interest the State might
have had in imposing such a content-based disincentive
on speech was not compelling); Minneapolis Star &
Tribune Co. v. Minnesota Comm’r of Revenue, 460 U.S.

App. 107a
575, 586 (1983) (holding that the State’s compelling
interest in raising tax revenue through taxation did not
justify selective taxation of the press since such
interest was altogether unrelated to the press/nonpress
distinction); Carey v. Brown, 447 U.S. 455, 467-69
(1980) (finding that the State’s compelling interest in
preserving privacy by banning residential picketing did
not justify a selective ban on nonlabor picketing since
the interest was unrelated to the labor/nonlabor
distinction).
In the instant case, the Court finds the State’s
interests in aesthetics and traffic safety are not
compelling interests. Not only are such general and
abstract interests generally not considered so
compelling as to justify content-based sign restrictions,
but also, they are unrelated to the distinction between
signs with on-premises-related content versus other
messages. Also, in practice this distinction undermines
the State’s interests. As discussed above, no binding
authority supports the State’s compelling interests of
aesthetics and traffic safety. These interests also fall
short of what the Supreme Court has deemed
appropriate for content-based-restrictions. Thus, the
Court finds the State’s aesthetic and traffic safety
interests are not compelling enough to justify contentbased restrictions.
The State has also failed to establish that its
interests are related to the Billboard Act’s contentbased restriction. The provisions at issue here concern
the distinction between signs with content concerning
on-premises-related activity versus other messages.
The State fails to establish how this specific distinction

App. 108a
relates to traffic safety and aesthetics. For example,
the State’s expert witness on traffic safety, Colonel
Tracy Trott, testified that “the number of crashes
related to distraction and the number of injury crashes
related to distraction are definitely on an upward
trend.” (Trial Tr., ECF No. 333 at PageID 6483:10-11.)
This “upward trend,” however, occurred while the
Billboard Act was in full force. Also, the statistics
Colonel Trott relied on do not reference billboards or
signs as causes for distracted driving or distracted
driving accidents. Colonel Trott also opined that a
proliferation of billboards would likely aggravate
distracted driving issues. (Id. at PageID 6488:7-17.)
Notably, Colonel Trott does not suggest that signs
whose content concerns on-premises-related activity
pose a greater or less driving distraction than other
signs; rather, he suggests that signs with more content
and signs outside the driver’s field of vision may create
greater distractions. He specifically states that signs
are “less distracting [when] they’re usually in your field
of vision that you’re using to drive with” and signs that
need “to be read or deciphered or retained” would be
potentially more distracting than signs that evoke
instant recognition, i.e. “I would know the golden
arches for McDonald’s or BP for gasoline, I know that
that facility sits at the bottom of that sign; and it’s a
very quick glance and back to the road.” (Id. at PageIDs
6488:22-24, 6503:20-25.)
The State’s civil engineering and human factors
engineering expert, TDOT Transportation Specialist
Jason Moody, also failed to establish how the onpremises/off-premises distinction relates to the State’s
traffic safety interest. (See ECF Nos. 270 ¶ 6.) Moody

App. 109a
merely opined that the placement of signs “directly
adjacent to a roadway” may “draw attention. If you
can’t view them for enough to read the message
properly, that could cause you to turn your head to
read the full message.” (Id. at PageID 6546:20-23.)
Moody also testified that billboards are generally
spaced parallel with the road, turned
perpendicular to the road so that drivers can see
them. They’re at the back of the right-of-way,
but they’re at the edge of the cone of vision. So,
that’s why you see them using such -- they’re not
in the primary cone or the cone right in front
where we place our signs. So, the text has to be
much larger to be read. They’re usually behind
our right-of-way.
Q: Based on your learning and experience, tell
us whether billboards are a factor in the area of
distracted driving.
A: Yes.
(Id. at PageIDs 6545:17-23, 6546:1.) Moody, like
Colonel Trott, does not opine on whether signs with onpremises-related activity content are more or less
distracting than other messages. Although Moody’s and
Colonel Trott’s testimony establishes that billboards
generally distract drivers, and that the State may have
a compelling interest in curtailing all billboards, their
testimony fails to establish how the Billboard Act’s onpremises/off-premises distinction is related to the
State’s interest in traffic safety.
Similarly, the State has failed to establish how its
interest in aesthetics is related to the Billboard Act’s

App. 110a
on-premises/off-premises distinction. The State’s
witness John Carr, Assistant Commissioner of
Administration for the Department of Tourist
Development, testified that “[t]ouring and sightseeing,
visiting historic sites, going to some of the parks” are
some of the primary scenic activities visitors come to
Tennessee enjoy. (Trial Tr., ECF No. 333 at PageID
6444:7-9.) Carr, however, does not discuss whether
signs with messages that do not concern on-premises
activity impact aesthetics. Shawn Bible, Beautification
Coordinator at TDOT, testified that zoning, rather than
a distinction between on-premises versus off-premises
signs, ensures that there are not “billboards blocking
the beautiful rural views or hanging over residences.”
(ECF No. 334 at PageID 6640:17-25.)
The State also provides no further evidence that the
distinction at issue relates to its aesthetic interest. The
State merely states “the Billboard Act engenders [ ]
recreational travel by helping keep the roads more
driver friendly and scenic.” (ECF No. 336 at PageID
6725.) While the Billboard Act as a whole may result in
more scenic roads, no evidence establishes that the
Billboard Act’s on-premises/off-premises distinction
relates to the State’s aesthetic interest.
In practice, the Billboard Act’s on-premises/offpremises distinction may undermine the State’s
interests. For example, a small sign with muted colors
that says “Knowledge is Power” off of 1-40 would
require a permit and tag, and compliance with the sixhundred-sixty (660)-foot restriction. Conversely, a large
sign with loud colors that states “This property is for
sale. Right here. This one. The one this sign is on. Look

App. 111a
at this sign. Look at this property,” would require no
permit or tag, and could be placed closer to another
sign and the roadway. The exempted “for sale” sign
that is bigger, brighter, contains more words, and
closer to another sign and road would certainly be a
distraction and eye-sore under the State’s evidence.
The regulated “Knowledge is Power” sign, on the other
hand, would be less of either. Thus, the Billboard Act’s
on-premises/off-premises distinction undermines the
State’s articulated interests.
In sum, the State’s aesthetic and traffic safety
interests are not so compelling as to justify contentbased sign restrictions, because they are unrelated to
the Billboard Act’s on-premises/off-premises
distinction, and because, in practice, the Billboard Act’s
on-premises/off-premises distinction undermines the
State’s interests.
Despite finding that the State’s interests are not
compelling, the Court will assume the State’s interests
are compelling and turn to whether the Billboard Act
is narrowly tailored to the State’s compelling interests.
2. The Billboard Act Is Not Narrowly
Tailored to the State’s Compelling
Interests
A law regulating speech is not narrowly tailored if
it fails to advance the government’s interests; the law
is also not narrowly tailored if it is either under- or
overinclusive, and is not the least restrictive means
among available, effective alternatives. See Reed, 135
S.Ct. at 2231–32; Simon & Schuster, Inc. v. Members
of New York State Crime Victims Bd., 502 U.S. 105,

App. 112a
121–23 (1991); Burson v. Freeman, 504 U.S. 191, 207
(1992); Ashcroft v. Am. Civil Liberties Union, 542 U.S.
656, 666 (2004).
For the reasons stated below, the Court finds that
even if the State’s interests were compelling, the
Billboard Act is not narrowly tailored to achieve those
interests.
i. Advancing the State’s Compelling
Interests
The State argues that the Billboard Act advances all
of its compelling interests. (ECF No. 336 at PageID
6732.) The State contends that the Billboard Act’s
restrictions are fourfold: “location (zoning), spacing,
size and lighting.” (Id.) The State argues that these
four restrictions render the Billboard Act narrowly
tailored because
a proliferation of billboard would be detrimental
to driver safety[;] . . . would be a blight on the
landscape and mar the . . . scenic beauty,
promoting recreational travel and promoting
tourism[;] . . . cause more distraction . . . [that]
lead to more crashes, and then road congestion[;]
. . . negatively impact economic development and
quality of life . . . [and] negatively impact the
investment in safety. . . .
(Id. at PageIDs 6733-37.)
The State confuses the issues. The present issue is
whether the Billboard Act’s exemption and exception
provisions are narrowly tailored to the State’s
compelling interests. The State’s argument, however,

App. 113a
refers to the Billboard Act generally and relies on a
hypothetical, unproven negative. Without proof, the
State contends that without the Billboard Act there
would be a proliferation of billboards. Assuming a
proliferation of signs would occur without the Billboard
Act, the State has failed to establish how the provisions
at issue—T.C.A. §§ 54-21-103(1)-(3), 54-21-107(a)(1)(2)—advance the State’s compelling interests.
Specifically, the State has not shown how a distinction
between on-premises and off-premises signs advances
aesthetics and traffic safety.
The State attempts to justify the on-premises/offpremises distinction in four ways: First, the State
argues that “[o]n-premise signs enhance safety by
helping drivers locate relevant businesses and
activities.” (Id. at PageID 6740.) Second, the State
contends “[t]he impact on aesthetics [by on-premises
signs] is minimal because the signs are already
integrated with the current land use.” (Id.) Third, the
State asserts that “[o]n-premise signs are inherently
self-regulating . . . [because] [o]wners of businesses do
not want to spend valuable real estate putting up a
number of signs – that space is better utilized for the
business itself.” (Id. at PageID 6741.) Fourth, offpremises signs are “designed to draw your attention
away from the road to read the message displayed on
the billboard or sign . . . they use colorful pictures and
other distractions to draw your attention . . . [and thus]
[t]hey serve to distract, not protect.” (Id. at PageID
6742.)7 The Court addresses each argument in turn.
7

The State presented these four arguments to support the
proposition that the Billboard Act is not underinclusive. The Court

App. 114a
First, the traffic-safety evidence the State proffers
relates to distracted driving, and the State has not
established that on-premises signs are less distracting
than off-premises signs. The opposite may be true. Onpremises signs are not subject to permit, tag, and
location restrictions, they may be more distracting than
an off-premises sign. Second, there is no evidentiary
support for the State’s proposition that on-premises
signs have less of an impact on aesthetics than offpremises signs. If the sign’s content concerns activity
on the premises, the premise owner may make as many
signs as he chooses and he may make them as
ostentatious as he chooses. Third, the State’s
conclusory assertion that business owners do not want
to put up numerous signs is speculative and lacks
evidentiary support. (See id. at PageID 6741.) The
assertion would certainly not be true for many firework
vendors.8 Fourth, the fundamental purpose of all signs,

finds, however, that these arguments also speak to whether the
Billboard Act’s exemption and exception provisions advance the
State’s compelling interests.
8

It is common knowledge in the court’s jurisdiction that firework
vendors signs are often numerous and flashy. See Fed. R. Evid.
201(b)(1) (“[T]he court may judicially notice a fact that is not
subject to reasonable dispute because it . . . is generally known
within the trial court’s territorial jurisdiction.”); see also ECF
No. 150 at PageID 2134-35 (“COURT: You have seen those big
signs when you’re coming out of Chattanooga where you have got
the signs about fireworks -- is it in Alabama? MS. JORDAN: Yes,
yes. I have seen -- definitely seen those, yes. COURT: Isn’t that
Sign in Tennessee? MS. JORDAN: I believe that it is. I honestly
don’t know. I know what you’re talking about, I know what you’re
referring to, I don’t know whether that’s in Tennessee or not, but

App. 115a
regardless of content, is “to draw your attention away”
from the current task “to read the message displayed
on the billboard or sign.”9 By the State’s logic, this
would mean all signs “serve to distract, not protect.”
Accordingly, this argument does not justify the
Billboard Act’s on-premises/off-premises sign
distinction. The Court is unpersuaded that the
Billboard Act advances the State’s compelling interest,
and finds the on-premises/off-premises distinction
actually undermines the State’s articulated interests in
practice.
The Court, therefore, finds the provisions of the
Billboard Act at issue do not advance the State’s
compelling interests. The Court need not inquire
further. If the Billboard Act does not advance the
State’s compelling interests, it is not narrowly tailored
and thus is unconstitutional. For completeness,
however, the Court will also consider whether the
Billboard Act is overinclusive or underinclusive, and
the least restrictive means.
ii. Overinclusive
A law regulating speech is overinclusive if it
implicates more speech than necessary to advance the
government’s interest(s). Simon & Schuster, 502 U.S.

it’s definitely on I-24 and is -- yeah, there’s several of those. There’s
one in particular that I can —”)
9

Shawn Bible, Beautification Coordinator at TDOT, when asked
“would you agree that the purpose of a billboard sign is to express
meaning or content to someone?” testified, “yes.” (ECF No. 334 at
PageID 6657:14-17.)

App. 116a
at 121–23. For example, in Simon & Schuster, the law
at issue required that an accused or convicted
criminal’s income from works describing his crime be
deposited in an escrow account and made available to
the victims of the crime and the criminal’s other
creditors. 502 U.S. at 108. The Supreme Court held
that the law was a “significantly overinclusive” means
of ensuring that victims are compensated from the
proceeds of the crime, and therefore the law was not
narrowly tailored. Id. at 121, 123. Describing the reach
of the statute, the Supreme Court stated:
Should a prominent figure write his
autobiography at the end of his career, and
include in an early chapter a brief recollection of
having stolen . . . a nearly worthless item as a
youthful prank, the [government entity] would
control his entire income from the book for five
years, and would make that income available to
all of the author’s creditors. . . .
Id. at 123. That is, the statute applied to a wide range
of literature that would not enable a criminal to profit
while a victim remained uncompensated. Because the
law covered far more material than necessary to
accomplish its goals, the Supreme Court held that the
statute was vastly overinclusive and therefore not
narrowly tailored. Id.
The State argues the Billboard Act is not
overinclusive because it “does not regulate content.”
(ECF No. 336 at PageID 6737.) The Court disagrees
that the Billboard Act does not regulate content. The
Billboard Act is a content-based regulation, as the
application of the exemption and exception provisions

App. 117a
hinges on the sign’s content. It is also at least arguable
that the Billboard Act is overinclusive. At the center of
the State’s interests is the desire to limit highly
distracting signs that impede traffic safety and
diminish aesthetics. While the Billboard Act regulates
off-premises signs that are highly distracting, it also
regulates off-premises signs that are not highly
distracting. For example, an off-premises sign that
mimics the “Hollywood” sign in Los Angeles, California
in enormous size10 and is located off an Interstate
regulated by the Billboard Act in Tennessee would be
regulated to the same extent as a small, off-premises
sign, located in the same place that stated, “Donate
Winter Coats at the YMCA. Exit 13.” In practice, the
Billboard Act is likely overinclusive. Even assuming
the Billboard Act is not overinclusive, however, the
Court finds it is underinclusive.
iii.

Underinclusive

An underinclusive law regulates less speech than
necessary to advance the government’s interest(s).
Florida Star v. B.J.F., 491 U.S. 524, 540 (1989); cf.
Burson, 504 U.S., at 207, 112 S.Ct. 1846 (“The First
Amendment does not require States to regulate for
problems that do not exist.”); see also Wagner v. City of
Garfield Heights, No. 13-3474, 2017 WL 129034, at *6
(6th Cir. Jan. 13, 2017) (finding that a law limiting the
10

Pursuant to Federal Rule of Evidence 702(b)(2), the Court takes
judicial notice of Los Angeles Historic-Cultural Monument No. 111
“Hollywood Sign & land underneath.” Historic-Cultural Monument
List: City Declared Monuments by Planning Community (Feb.
2017), http://preservation.lacity.org/commission/designatedhistoric-cultural-monuments.

App. 118a
size of political signs was underinclusive as to the city’s
aesthetic and traffic safety interests, because the
display of larger, non-political signs would counteract
those interests). For the reasons stated below, the
Court finds the Billboard Act is underinclusive, as it
regulates less speech than necessary to advance the
State’s allegedly compelling interests.
The State argues that the Billboard Act is not
underinclusive because on-premises/off-premises
distinctions are content-neutral regulations under
Supreme Court precedent and do not favor one message
over another under Sixth Circuit precedent. (ECF
No. 336 at PageIDs 6739-40 (citing Suffolk Outdoor
Advertising Co. v. Hulse, 439 U.S. 808 (1978); MetroMedia, Inc. v. City of San Diego, 453 U.S. 490, 508-12
(1981); Members of the City Council of the City of Los
Angeles v. Taxpayers for Vincent, 466 U.S. 789, 806-07
(1984); City of Cincinnati v. Discovery Network, Inc.,
507 U.S. 410, 425 (1993); Reed v. Town of Gilbert, 135
S.Ct. 2218, 2233 (2015) and Wheeler v. Commissioner
of Highways, 822 F.2d 586, 591 (6th Cir. 1987).) The
State also sets out the four arguments discussed above:
(1) “[o]n-premise signs enhance safety by helping
drivers locate relevant businesses and activities” (ECF
No. 336 at PageID 6740); (2) “[t]he impact on aesthetics
[by on-premises signs] is minimal because the signs are
already integrated with the current land use” (id.);
(3) “[o]n-premise signs are inherently self-regulating
. . . [because] [o]wners of businesses do not want to
spend valuable real estate putting up a number of
signs” (id. at PageID 6741); and (4) off-premises signs
are “designed to draw your attention away from the
road to read the message displayed on the billboard or

App. 119a
sign . . . [and thus] [t]hey serve to distract, not protect”
(id. at PageID 6742). For the reasons stated below, the
Court finds the Billboard Act is underinclusive, as it
regulates less speech than necessary to advance the
State’s compelling interests.
The State’s content-neutral argument is baseless;
although it is possible for an on-premises/ off-premises
regulation to be content neutral, the Court finds the
Billboard Act’s on-premises/off-premises distinction is
content based because the distinction under the
Billboard Act’s provisions hinges on the sign’s content.
The State’s remaining arguments fail to sufficiently
disprove that the Billboard Act is underinclusive by
regulating less speech than necessary to advance the
State’s interests.
The Court’s reasoning in the instant case mirrors
the Sixth Circuit’s reasoning in Wagner v. City of
Garfield Heights, No. 13-3474, 2017 WL 129034, at *6
(6th Cir. Jan. 13, 2017). In Wagner, the Sixth Circuit
used Reed’s analysis to hold that a sign ordinance “that
expressly limits political signs to six square feet, but
permits other kinds of temporary signs to be twice that
size” was underinclusive, because the city “offer[ed] no
rationale for why political signs, as opposed to a signs
advertising local businesses, mar the city’s aesthetic
appeal in such a way as to merit an arbitrarily smaller
size restriction.” Id. at *6. Similarly, in the instant
case, the State has “offer[ed] no rationale for why
[signs displaying non-premises-related content], as
opposed to [signs displaying on-premises-related
content] mar the [State’s] aesthetic appeal in such a
way as to merit an arbitrary [permit, tag, and location]

App. 120a
restriction.” Id. As discussed above, the Billboard Act’s
exemption and exception provisions would absolve
large, ostentatious on-premises signs that are closely
placed together from the permit, tag, and location
requirement while regulating small, muted offpremises signs. See Part III.B.1. Moreover, the State’s
conclusory arguments that on-premises signs “are
already integrated with the current land use” (ECF
No. 336 at PageID 6740), and that business owners
avoid displaying multiple signs (id. at PageID 6741)
lack evidentiary support and merit. Aesthetics are not
measured by how relevant the sign’s content is to the
on-premises activity. One can easily anticipate a
scenario where a business chooses to display many
obnoxious signs advertising its activity—e.g., firework
vendors. Significantly, the State presents no evidence
that business owners choose to limit the number of
signs on their property. Therefore, the Court finds that
the Billboard Act regulates less speech than necessary
to advance the State’s aesthetic interests.
This finding is supported by the Sixth Circuit Court
of Appeal’s holding in Wagner. In that post-Reed case,
the Circuit Court of Appeals held that the city
“‘similarly has not shown that limiting temporary
[political] signs is necessary to eliminate threats to
traffic safety, but that limiting other types of signs is
not.’” Id. (quoting Reed, 135 S. Ct. at 2232.) The same
reasoning is applicable in this case. The State “‘has not
shown how [instituting permit, tag, and location
requirements for signs displaying non-premises-related
content] is necessary to eliminate threats to traffic
safety, but that [having the same requirements] for
other types of signs is not.’” Id. The State’s argument

App. 121a
that on-premises signs “help[] drivers locate relevant
businesses and activities” (ECF No. 336 at PageID
6740) does not establish why on-premises signs are not
subject to permit, tag, and location requirements.
These requirements would not change the sign’s
content, so it would maintain its helpful purpose. Also,
the State’s assertion that off-premises signs are
“designed to draw your attention away from the road to
read the message displayed on the billboard or sign . . .
[and thus] [t]hey serve to distract, not protect” (id. at
PageID 6742) is nonsensical, as all signs are designed
with this purpose. This argument, therefore, does not
establish why it is necessary to regulate off-premises
signs and not on-premises signs to eliminate threats to
traffic safety. Thus, the Billboard Act regulates less
speech than necessary to advance the State’s trafficsafety-related interests.
For the reasons stated above, the Court finds the
Billboard Act is underinclusive, as it regulates less
speech than necessary to advance the State’s allegedly
compelling interests.
iv.

Least Restrictive Means

The Court finds that the provisions at issue are not
narrowly tailored because they are not the least
restrictive means by which the State may further its
interests. “If a less restrictive alternative would serve
the Government’s purpose, the legislature must use
that alternative. . . . To do otherwise would be to
restrict speech without an adequate justification, a
course the First Amendment does not permit.” United
States v. Playboy Entm’t Grp., Inc., 529 U.S. 803, 813
(2000) (internal citations omitted); see also McCullen

App. 122a
v. Coakley, 134 S. Ct. 2518, 2530 (2014); Bible
Believers v. Wayne Cty., Mich., 805 F.3d 228, 248 (6th
Cir. 2015), cert. denied, 136 S. Ct. 2013 (2016). “[T]he
challenged regulation [must be] the least restrictive
means among available, effective alternatives.”
Ashcroft v. Am. Civil Liberties Union, 542 U.S. 656,
666 (2004).
The Court ordered the parties to brief the issue of
least restrictive means. (ECF No. 342.) Thomas posits
eight alternative means that he argues would advance
the State’s allegedly compelling interests. (ECF
No. 343.) First, Thomas suggests that the Billboard Act
regulate only commercial speech. (Id. at PageID 6787.)
Second, Thomas proposes a regulation limiting sign
size, regardless of content. (Id. at PageID 6788.) Third,
Thomas suggests a spacing restriction for all signs,
regardless of content. (Id. at PageID 6789.) Fourth,
Thomas proposes a regulation that would allow
property owners to display any sign on their property,
regardless of content. (Id. at PageID 6790.) Fifth,
Thomas proposes distinguishing between signs based
on whether they are placed on public rights-of-way or
on private property. (Id. at PageID 6790.) Sixth,
Thomas posits creating a provision that allows “noncommercial speech [to] be displayed anywhere
commercial speech is permitted.” (Id. at PageID 6791.)
Seventh, Thomas suggests requiring all signs,
regardless of content, to be placed a minimum distance
apart from one another. (Id.) Eighth, Thomas proposes
restricting all signs to specific presentation
characteristics, e.g., size, lights, colors, font size,
electronic messages, or moving parts. (Id. at PageID
6791.)

App. 123a
In its response, the State contends that none of the
alternatives proffered by Thomas would achieve the
State’s interests. (ECF No. 344 at PageID 6795.) The
Court addresses, in turn, each of the alternatives in
conjunction with the State’s responses.
1. N o n - C o m m e r c i a l / C o m m e r c i a l
Distinction
First, the State contends that limiting the Billboard
Act to only commercial speech “would be inherently
content-based because it would require a review of the
message, no matter the location, to determine whether
it is in fact non-commercial” or commercial speech. (Id.
at PageID 6797.) Additionally, the State argues,
exempting non-commercial speech from regulation
would not advance the State’s compelling interests, as
it would allow non-commercial signs to proliferate. (Id.
at PageID 6798.) The State also takes issue with this
proposal because “the State would have to constantly
be on alert and watch the signs because there will be
occasions where sign owners will place commercial
messages on the signs, but then change to noncommercial content if caught, then revert back to
commercial.” (Id.)
The Court is unpersuaded by the State’s argument
that limiting the Billboard Act to only commercial
speech would render the Billboard Act content based.
Although this is an issue litigated in our sister courts,11
11

See, e.g., RCP Publications Inc. v. City of Chicago, No. 15 C
11398, 2016 WL 4593830, at *3 (N.D. Ill. Sept. 2, 2016) (evaluating
regulation that distinguished between commercial and noncommercial speech); CTIA-The Wireless Ass’n v. City of Berkeley,

App. 124a
the Court declines to find that limiting the Billboard
Act to only commercial speech would constitute a
content-based regulation. Nonetheless, even if limiting
the Billboard Act to commercial speech would render it
a content-based regulation, its provisions would then
be subject to a lower level of scrutiny. Under a less
burdensome inquiry, a content-based regulation of
commercial speech may be constitutional. Similar
regulations have been found constitutional after Reed.
See, e.g., Geft Outdoor LLC v. Consol. City of
Indianapolis & Cty. of Marion, Indiana, 187 F. Supp.
3d 1002, 1007 (S.D. Ind. 2016) (finding constitutional
an amended, on-premises/off-premises distinction that
applied only to commercial speech). The State’s
contention that a non-commercial/commercial
distinction would be more burdensome than the
current on-premises/off-premises distinction is invalid.
It is no more burdensome on the State “to constantly be
on alert . . . [for when] sign owners [ ] place [offpremises] messages on the signs, but then change to
[on-premises] content if caught, then revert back to
[off-premises content].” (ECF No. 344 at PageID 6798.)
The Court also finds that while a noncommercial/commercial distinction still advances the
State’s compelling interests, it may not do so to the
same extent as the current on-premises/off-premises
distinction, which applies to all speech. In short, a non-

California, 139 F. Supp. 3d 1048, 1061 n.9 (N.D. Cal. 2015)
(“Ironically, the classification of speech between commercial and
noncommercial is itself a content-based distinction. Yet it cannot
seriously be contended that such classification itself runs afoul of
the First Amendment.”).

App. 125a
commercial/commercial distinction
effective but not ineffective.

may

be

less

2. Sign Size
Second, the State argues that Thomas “lacks
standing to assert an alternative that would require all
signs to conform to the same size restrictions. . . .
[Moreover, regulating size for all signs] would not help
Plaintiff because the regulations preclude his sign no
matter what size it is.” (Id. at PageID 6799.) Both
claims are groundless. The State’s first claim that
Thomas lacks standing to propose an alternative is
without merit. Proposing an alternative to a challenged
provision does not require standing. Thomas need only
establish standing to challenge the Billboard Act’s
exemption and exception provisions, which he has. The
Court is also unpersuaded by the State’s second
assertion that regulating all signs by size would be
unbeneficial to Thomas. If the Billboard Act’s onpremises/off-premises distinction was replaced with a
size restriction, it is possible Thomas’s Crossroad Ford
sign would be exempt from the permit, tag, and
location requirements, so long as its size complied with
the restriction.
The Court finds that a size regulation, rather than
an on-premises/off-premises distinction, would also
further the State’s compelling interests. A size
regulation would apply to both commercial and noncommercial speech. A size regulation would also allow
the State to further its traffic safety interest. For
example, the State could require all signs greater than
four square feet to abide by the Billboard Act’s permit,
tag, and location requirements. Although signs smaller

App. 126a
than four square feet could “proliferate,” their size
could be less distracting to drivers than bigger signs.
Similarly, a size regulation would further the State’s
aesthetic interests because the smaller unregulated
signs would make far less of a negative aesthetic
impact than their larger counterparts. Furthermore,
the Court does not find that a size regulation would be
less effective than the current on-premises/off-premises
distinction. Just as on-premises signs may proliferate,
so long as their content relates to on-premises activity,
so may signs that meet the size restriction. Thus, the
Court finds that a size regulation constitutes a less
restrictive means of advancing the State’s interests.
3. Spacing
Third, the State argues that Thomas’s proposal that
all signs be spaced five hundred (500) feet apart would
be too restrictive. (See ECF No. 344 at PageID 6799.)
The State asserts that the current “spacing
requirements [under the Billboard Act are as follows]:
1,000 feet on interstates, 500 feet on primary state
routes not on the interstate system, and 100 feet on
primary State routes within cities.” (Id.) A blanket 500foot restriction, the State argues, would prevent
business owners from adequately indicating their
business’s whereabouts to drivers and deprive some,
but not all, property owners of their right to erect a
sign. (Id. at PageIDs 6800-01.) The Court does not
agree with the State’s reasoning, but finds that
Thomas’s specific 500-foot restriction is not an
effective, less restrictive alternative.
A more nuanced spacing restriction, however, may
constitute an effective, less restrictive alternative. For

App. 127a
example, the Billboard Act could be amended to have a
spacing scheme that required 2,000 feet on interstates,
1000 feet on primary state routes not on the interstate
system, and 200 feet on primary state routes within
cities, along with a provision that allowed business or
premises owners to erect additional signs if those signs
were within 75 feet of an on-premises building. This
amendment would limit the number of signs that could
distract drivers or negatively impact aesthetics, while
allowing business and organizations to display signs on
their own property. The Court, therefore, finds that a
spacing restriction constitutes as an effective, less
restrictive alternative to the on-premises/off-premises
distinction under the Billboard Act.
4. Exemption for Property Owners
Erecting Signs
Fourth, the State contends that Thomas’s
“suggestion to allow property owners to put up signs on
their own property without regard to zoning is the
same as no regulation . . . [and] would do absolutely
nothing to prevent proliferation. . . .” (Id. at PageID
6801.) The Court similarly finds that Thomas’s
suggestion would fall short of advancing the State’s
interests. Property owners would be allowed to place
signs of any size, at any distance, and of any number
without regulation, which would undermine the State’s
compelling interests. Thus, the Court finds an
exemption for property owners is not an effective, less
restrictive alternative.

App. 128a
5. Public/Private Property
Fifth, the State contends that Thomas’s proposal to
“treat” all public and private property signs the “same”
is confusing, unless Thomas seeks to subject all signs
to the Manual on Uniform Traffic Control Devices
(“MUTCD”), T.C.A. § 54-5-108(b). (Id. at PageIDs 680102.) The State argues, however, that these restrictions
would be overinclusive. (Id. at PageID 6802.) The Court
agrees. The MUTCD provisions would regulate more
speech than necessary to advance the State’s interests;
thus, treating all public and private signs the same
would not serve as a less restrictive alternative. The
Court notes, however, that an ordinance that exempted
only signs that complied with MUTCD, while requiring
that all other signs abide by the Billboard Act’s permit,
tag, and location requirements may be constitutional.
See Ackerley Commc’ns of Massachusetts, Inc. v. City
of Cambridge, 88 F.3d 33, 37 n.9 (1st Cir. 1996).
6. Permitting Non-Commercial Signs
Wherever Commercial Signs are
Permitted
Sixth, the State opposes Thomas’s proposal that the
Billboard Act permit non-commercial signs wherever
commercial signs are permitted, because the State
contends the Billboard Act already permits the erection
of non-commercial signs wherever commercial signs
may be erected. (Id. at PageID 6803.) Sixth Circuit
precedent supports the State’s argument. Wheeler v.
Comm’r of Highways, Com. of Ky., 822 F.2d 586, 596
(6th Cir. 1987) (holding that a regulation allowing
signs related to on-premises activity meant “[n]oncommercial and commercial messages are permitted

App. 129a
anywhere provided that an activity relating to the
message is conducted on the premises.”). The Court
finds, however, that the Billboard Act’s scheme also
draws a line between two types of noncommercial
speech—on-and off-premises messages. “This line has
the effect of disadvantaging the category of
noncommercial speech that is probably the most highly
protected: the expression of ideas.” Ackerley Commc’ns
of Massachusetts, Inc. v. City of Cambridge, 88 F.3d 33,
37 (1st Cir. 1996). But with rare exceptions, the First
Amendment does not permit the State to value certain
types of noncommercial speech more highly than
others, particularly when the speech disfavored
includes speech, such as political speech, that is at the
core of the First Amendment’s value system. See id.
For example, St. Jude Children’s Research Hospital
may display a sign relating to its cancer research or the
annual St. Jude Memphis Marathon, but may not
replace the content of that sign to say, “Vote for
Referendum 72: providing housing to women and
children of domestic abuse” or “Remember to Vote.”
Further, McDonalds may display its well-known golden
arches, but may not display a sign that states, “Donate
to your local library to promote and strengthen innercity literacy.” When posed with a similar
scenario—where an on-premises Valero sign is changed
from “Valero Honors Our Veterans. Valero.” to “Valero.
Public corruption. TDOT Com. Schroer and Shawn
Bible are Corrupt Officials”—Shawn Bible,
Beautification Coordinator at TDOT, testified:
I don’t know the answer. I would have to think
about that. I’m not sure. You really need it to
connect to the business to be an advertising.

App. 130a
Valero wants people to think of them as good
Americans and support veterans and they think
that builds business. I wouldn’t think this would
be a message that you could legitimately say
would build business.
(Trial Tr., ECF No. 334 at PageID 6675:16-24 (referring
to Exhibit 4).) Although Valero Energy Company’s
business is energy, and not veteran services or political
activism, the State’s agents use a sign’s noncommercial content to determine if the content
concerns on-premises activity. But even if the
business’s name is displayed, aligning itself with the
content on the sign, the State may still find the content
does not convey on-premises-related activity. Bible
testified that on-premises activity should “be a message
that would could legitimately say would build
business,” appearing to require that the content must
serve a commercial purpose. Thus, the Court finds that
adding a provision that non-commercial signs may be
permitted wherever commercial signs are permitted
would likely be as restrictive as the current Billboard
Act provisions, because the constitutional issue here
arises from the distinction between on-premises, noncommercial speech and off-premises, non-commercial
speech.
7. Minimum Distance Requirements
Seventh, the State argues that Thomas’s minimum
distance requirements for all signs fails for the same
reasons his 500-foot distance requirement failed. (Id. at
PageID 6804.) For the same reasons discussed above,
the Court finds that a distance/spacing requirement

App. 131a
does constitute a less restrictive alternative to the onpremises/off-premises distinction.
8. R e s t r i c t i n g
Characteristics

Presentation

Eighth, the State contends that Thomas “lacks
standing to challenge” regulations pertaining to the
size or other presentation characteristics. (Id. at
PageID 6804.) As discussed previously, Thomas has
standing to challenge the Billboard Act’s onpremises/off-premises distinction. It is unnecessary for
Thomas to establish standing for his proposals of less
restrictive means to the on-premises/off-premises
distinction. The State then argues that, “even if this
Court were to find that the different size and
presentation regulations were in fact improper, that
would not help Plaintiff because the regulations
preclude his sign no matter what size it is or what it
looks like.” (Id. at PageID 6805.) The State, once again,
is confused. Thomas is not challenging size- or
presentation-related regulations. He aims to propose a
less restrictive alternative to the challenged onpremises/off-premises distinction that will also advance
the State’s interests. For example, an alternative
regulation may require all signs, regardless of content,
to be a particular size, use a particular font (or a set of
fonts), be limited to a particular colors, face a
particular direction, or stand at a particular height, etc.
The Court finds that there are various content-neutral,
presentation-related regulations that would be less
restrictive than the Billboard Act’s on-premises/offpremises distinction. These presentation-related
regulations would also advance the State’s interests.

App. 132a
Signs could be required to be within the driver’s zone of
vision, thus reducing distracted driving. A regulation
could also require that signs be placed and sized in
such a manner as to have less of an impact on
aesthetics. The Court, therefore, finds that
presentation-related regulations could constitute an
effective, less restrictive alternative.
Having found multiple effective, less restrictive
means that would further the State’s compelling
interests, the Court finds the Billboard Act is not the
least restrictive means to further the State’s allegedly
compelling interests.
In sum, the Court finds that even if the State’s
interests were compelling, the Billboard Act’s
exemption and exception provisions are not narrowly
tailored to achieve their purpose because they are
underinclusive and do not constitute the least
restrictive means available.
IV.

CONCLUSION

For the reasons stated above, the Court finds the
Billboard Act is an unconstitutional, content-based
regulation of speech.12

12

The Court notes that if it were clear from the face of the statute
that the Tennessee legislature would have enacted the Billboard
Act with the unconstitutional on-premises/off-premises distinction
omitted, the Court could sever the unconstitutional provisions
while the Billboard Act’s constitutional provisions stay in effect.
See Thomas v. Schroer, 116 F. Supp. 3d 869, 877 (W.D. Tenn.
2015) (quoting Memphis Planned Parenthood, 175 F.3d at 466

App. 133a
IT IS SO ORDERED, this 31st day of March, 2017.
/s/ Jon P. McCalla
JON P. McCALLA
UNITED STATES DISTRICT COURT JUDGE

(quoting State v. Harmon, 882 S.W.2d 352, 355 (Tenn. 1994)). The
Court, however, is unpersuaded that the Billboard Act, as written,
is severable in this manner. See id.

App. 134a

APPENDIX G
UNITED STATES COURT OF APPEALS
FOR THE SIXTH CIRCUIT
No. 17-6238
[Filed November 6, 2019]
___________________________________
WILLIAM HAROLD THOMAS, JR., )
)
Plaintiff-Appellee,
)
)
v.
)
)
CLAY BRIGHT, COMMISSIONER
)
OF TENNESSEE DEPARTMENT
)
OF TRANSPORTATION,
)
)
Defendant-Appellant.
)
___________________________________ )
ORDER
BEFORE: COLE, Chief Judges; BATCHELDER
and DONALD, Circuit Judges.
The court received a petition for rehearing en banc.
The original panel has reviewed the petition for
rehearing and concludes that the issues raised in the
petition were fully considered upon the original
submission and decision of the case. The petition then
was circulated to the full court. No judge has requested
a vote on the suggestion for rehearing en banc.

App. 135a
Therefore, the petition is denied.
ENTERED BY ORDER OF THE COURT
/s/ Deborah S. Hunt
Deborah S. Hunt, Clerk

App. 136a

APPENDIX H
23 U.S.C. § 131.Control of outdoor advertising
(a) The Congress hereby finds and declares that the
erection and maintenance of outdoor advertising signs,
displays, and devices in areas adjacent to the Interstate
System and the primary system should be controlled in
order to protect the public investment in such
highways, to promote the safety and recreational value
of public travel, and to preserve natural beauty.
(b) Federal-aid highway funds apportioned on or after
January 1, 1968, to any State which the Secretary
determines has not made provision for effective control
of the erection and maintenance along the Interstate
System and the primary system of outdoor advertising
signs, displays, and devices which are within six
hundred and sixty feet of the nearest edge of the
right-of-way and visible from the main traveled way of
the system, and Federal-aid highway funds
apportioned on or after January 1, 1975, or after the
expiration of the next regular session of the State
legislature, whichever is later, to any State which the
Secretary determines has not made provision for
effective control of the erection and maintenance along
the Interstate System and the primary system of those
additional outdoor advertising signs, displays, and
devices which are more than six hundred and sixty feet
off the nearest edge of the right-of-way, located outside
of urban areas, visible from the main traveled way of
the system, and erected with the purpose of their

App. 137a
message being read from such main traveled way, shall
be reduced by amounts equal to 10 per centum of the
amounts which would otherwise be apportioned to such
State under section 104 of this title, until such time as
such State shall provide for such effective control. Any
amount which is withheld from apportionment to any
State hereunder shall be reapportioned to the other
States. Whenever he determines it to be in the public
interest, the Secretary may suspend, for such periods
as he deems necessary, the application of this
subsection to a State.
(c) Effective control means that such signs, displays, or
devices after January 1, 1968, if located within six
hundred and sixty feet of the right-of-way and, on or
after July 1, 1975, or after the expiration of the next
regular session of the State legislature, whichever is
later, if located beyond six hundred and sixty feet of the
right-of-way located outside of urban areas, visible
from the main traveled way of the system, and erected
with the purpose of their message being read from such
main traveled way, shall, pursuant to this section, be
limited to (1) directional and official signs and notices,
which signs and notices shall include, but not be
limited to, signs and notices pertaining to natural
wonders, scenic and historical attractions, which are
required or authorized by law, which shall conform to
national standards hereby authorized to be
promulgated by the Secretary hereunder, which
standards shall contain provisions concerning lighting,
size, number, and spacing of signs, and such other
requirements as may be appropriate to implement this
section, (2) signs, displays, and devices advertising the
sale or lease of property upon which they are located,

App. 138a
(3) signs, displays, and devices, including those which
may be changed at reasonable intervals by electronic
process or by remote control, advertising activities
conducted on the property on which they are located,
(4) signs lawfully in existence on October 22, 1965,
determined by the State, subject to the approval of the
Secretary, to be landmark signs, including signs on
farm structures or natural surfaces, or historic or
artistic significance the preservation of which would be
consistent with the purposes of this section, and
(5) signs, displays, and devices advertising the
distribution by nonprofit organizations of free coffee to
individuals traveling on the Interstate System or the
primary system. For the purposes of this subsection,
the term “free coffee” shall include coffee for which a
donation may be made, but is not required.
(d) In order to promote the reasonable, orderly and
effective display of outdoor advertising while remaining
consistent with the purposes of this section, signs,
displays, and devices whose size, lighting and spacing,
consistent with customary use is to be determined by
agreement between the several States and the
Secretary, may be erected and maintained within six
hundred and sixty feet of the nearest edge of the
right-of-way within areas adjacent to the Interstate
and primary systems which are zoned industrial or
commercial under authority of State law, or in unzoned
commercial or industrial areas as may be determined
by agreement between the several States and the
Secretary. The States shall have full authority under
their own zoning laws to zone areas for commercial or
industrial purposes, and the actions of the States in
this regard will be accepted for the purposes of this Act.

App. 139a
Whenever a bona fide State, county, or local zoning
authority has made a determination of customary use,
such determination will be accepted in lieu of controls
by agreement in the zoned commercial and industrial
areas within the geographical jurisdiction of such
authority. Nothing in this subsection shall apply to
signs, displays, and devices referred to in clauses
(2) and (3) of subsection (c) of this section.
***

App. 140a
Tenn. Code Ann. § 54-21-103 (2017)
§ 54-21-103. Restrictions on outdoor advertising
on interstate and primary highways.
No outdoor advertising shall be erected or maintained
within six hundred sixty feet (660') of the nearest edge
of the right-of-way and visible from the main traveled
way of the interstate or primary highway systems in
this state except the following:
(1) Directional or other official signs and notices
including, but not limited to, signs and notices
pertaining to natural wonders, scenic and historical
attractions that are authorized or required by law;
(2) Signs, displays and devices advertising the sale or
lease of property on which they are located;
(3) Signs, displays and devices advertising activities
conducted on the property on which they are located;
(4) Signs, displays and devices located in areas that are
zoned industrial or commercial under authority of law
and whose size, lighting and spacing are consistent
with customary use as determined by agreement
between the state and the secretary of transportation
of the United States; and
(5) Signs, displays and devices located in unzoned
commercial or industrial areas as may be determined
by agreement between the state and the secretary of
transportation of the United States and subject to
regulations promulgated by the commissioner.

App. 141a
Tenn. Code Ann. § 54-21-104 (2018)
§ 54-21-104. Permits and tags -- Fees.
(a) Unless otherwise provided in this chapter, no
person shall construct, erect, operate, use, maintain, or
cause or permit to be constructed, erected, operated,
used, or maintained, any outdoor advertising within six
hundred sixty feet (660') of the nearest edge of the
right-of-way and visible from the main traveled way of
the interstate or primary highway systems without
first obtaining from the commissioner a permit and tag.
***

App. 142a
Tenn. Code Ann. § 54-21-107 (2018)
§ 54-21-107. Exemptions.
(a) The following outdoor advertising are exempt from
§ 54-21-104:
(1) Those advertising activities conducted on the
property on which they are located;
(2) Those advertising the sale or lease of property on
which they are located; and
(3) Those that are official as established under
authority of any statute or regulation promulgated
with respect to the outdoor advertising.
(b) Any advertising structure existing along the
parkway system by and for the sole benefit of an
educational, religious or charitable organization shall
be exempt from the payment of fees for permits or tags
under § 54-21-104.

App. 143a
Tenn. Comp. R. & Regs 1680-2-3-.03 Criteria for
the Erection and Control of Outdoor Advertising.
(1) Restrictions on Outdoor Advertising adjacent to
Interstate and Primary Highways:
(a) Outdoor Advertising erected or maintained within
660 feet of the nearest edge of the right-of-way and
visible from the main traveled way are subject to the
following restrictions:
1. Zoning:
Outdoor Advertising must be located in areas zoned for
commercial or industrial use or in areas which qualify
for unzoned commercial or industrial use. (See
Definition 1680-2-3-.02, Paragraph 27)
(i) The following types of advertising signs are not
restricted by the zoning criteria:
(I) Directional and other official signs and notices
including, but not limited to natural wonders, scenic,
and historic attractions, which are authorized or
required by law.
(II) Signs, displays, and devices advertising the sale or
lease of property on which they are located.
(III) Signs, displays, and devices advertising activities
conducted on the property on which they are located.
(See Rule 1680-2-3-.06 for detailed description of an
on-premise sign)
***

App. 144a
Tenn. Comp. R. & Regs 1680-2-3-.06 On-premise
Signs.
(1) General
Signs advertising the sale or lease of the property on
which they are located and signs advertising activities
conducted on the property upon which they are located
are called “on-premise” signs. These are not required to
be permitted as discussed in §1680-2-3-.03, 5. and 6.,
but are subject to the criteria listed below when
determining whether a sign is an on-premise sign.
(2) Characteristics of an On-Premise Sign
A sign will be considered to be an on-premise sign if it
meets the following requirements.
(a) Premise - The sign must be located on the same
premises as the activity or property advertised.
(b) Purpose - The sign must have as its purpose (1) the
identification of the activity, or its products or services,
or (2) the sale or lease of the property on which the sign
is located, rather than the purpose of general
advertising.
(3) Premises Test
The following criteria shall be used in determining
whether a device is located on the same premises as
the activity or property advertised:
(a) The premises on which an activity is conducted is
determined by physical facts rather than property
lines. Generally, it is defined as the land occupied by
the buildings or other physical uses essential to the

App. 145a
activity including such areas as are arranged and
designed to be used in connection with such buildings
or uses.
(b) The following will not be considered to be a part of
the premises on which the activity is conducted and
any signs located on such land will be considered
“off-premise” advertising.
1. Any land which is not used as an integral part of the
principle activity. This would include but is not limited
to, land which is separated from the activity, by a
roadway, highway, or other obstructions and not used
by the activity and extensive undeveloped highway
frontage contiguous to the land actually used by a
commercial facility even though it might be under the
same ownership.
2. Any land which is used for, or devoted to, a separate
purpose unrelated to the advertised activity. For
example, land adjacent to or adjoining a service station,
but devoted to raising of crops, residence, or farmstead
uses or other than commercial or industrial uses
having no relationship to the service station activity
would not be part of the premises of the service station,
even though under the same ownership.
3. Any land which is:
(i) at some distance from the principle activity, and
(ii) in closer proximity to the highway than the
principle activity, and
(iii) developed or used only in the area of the sign site
or between the sign site and the principle activity, and

App. 146a
(iv) occupied solely by structures or uses which are only
incidental to the principle activity, and which serve no
reasonable or integrated purpose related to the activity
other than to attempt to qualify the land for signing
purposes. Generally, these will be facilities such as
picnic, playground, or camping areas, dog kennels, golf
driving ranges, skeet ranges, common or private
roadways or easements, walking paths, fences, and
sign maintenance sheds.
(c) Narrow Strips
Where the sign site is located at or near the end of a
narrow strip contiguous to the advertised activity, the
sign site shall not be considered part of the premises on
which the activity being advertised is conducted. A
narrow strip shall include any configurations of land
which is such that it cannot be put to any reasonable
use related to the activity other than for signing
purposes.
In no event shall a sign site be considered part of the
premises on which the advertised activity is conducted
if it is located upon a narrow strip of land:
1. Which is non-building land, such as swamp land,
marsh land, or other wet land, or
2. Which is a common or private roadway, or
3. Held by easement or other lesser interest than the
premises where the advertised activity is located.
Note: On-premise advertising may extend to fifty (50)
feet from the principle activity as set forth above unless
the area extends across a roadway.

App. 147a
(4) Purpose Test
The following criteria shall be used for determining
whether a sign has as its purpose (1) the identification
of the activity located on the premises or its products or
services, or (2) the sale or lease of the property on
which the sign is located, rather than the business of
outdoor advertising.
(a) General
1. Any sign which consists solely of the name of the
establishment is an on-premise sign.
2. A sign which identifies the establishment’s principle
or accessory product or services offered on the premises
is an on-premise sign.
3. An example of an accessory product would be a
brand of tires offered for sale at a service station.
(b) Business of Outdoor Advertising
1. When an outdoor advertising device (1) brings rental
income to the property owner, or (2) consists principally
of brand name or trade name advertising, or (3) the
product or service advertised is only incidental to the
principle activity, it shall be considered the business of
outdoor advertising and not an on-premise sign. An
example would be a typical billboard located on the top
of a service station building that advertised a brand of
cigarettes or chewing gum which is incidentally sold in
a vending machine on the property.
2. An outdoor advertising device which advertises
activities conducted on the premises, but which also
advertises, in a prominent manner, activities not

App. 148a
conducted on the premises, is not an on-premise sign.
An example would be a sign advertising a motel or
restaurant not located on the premises with a notation
or attachment stating “Skeet Range Here,” or “Dog
Kennels Here.” The on-premise activity would only be
the skeet range or dog kennels.
(c) Sale or Lease Signs
A sale or lease sign which also advertises any product
or service not located upon and related to the business
of selling or leasing the land on which the sign is
located is not an on-premise sign. An example of this
would be a typical billboard which states “THIS
PROPERTY FOR SALE---SMITHS MOTEL; 500
ROOMS, AIR CONDITIONED, TURN RIGHT 3
BLOCKS AT MA IN STREET.”

